                                                                             Report No. DODIG-2014-109




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

               SEPTEMBER 8, 2014




                     Review of Audits Issued by the
                     Defense Contract Audit Agency in
                     FY 2012 and FY 2013




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
      Our mission is to provide independent, relevant, and timely oversight
      of the Department of Defense that supports the warfighter; promotes
      accountability, integrity, and efficiency; advises the Secretary of
                 Defense and Congress; and informs the public.



                                              Vision
      Our vision is to be a model oversight organization in the Federal
      Government by leading change, speaking truth, and promoting
      excellence—a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                                        Fraud, Waste & Abuse

                                        HOTLINE
                                        Department of Defense
                                        dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                              INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                             4800 MARK CENTER DRIVE
                          ALEXANDRIA, VIRGINIA 22350-1500


                                                                      September 8, 2014

MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY

SUBJECT: Review of Audits Issued by the Defense Contract Audit Agency
	        in FY 2012 and FY 2013
	        (Report No. DODIG-2014-109/Project No. D2013-DAPOCF-0004.000)

We are providing this memorandum for your review and comment. We performed an
evaluation of 16 Defense Contract Audit Agency (DCAA) audits and identified deficiencies
with generally accepted government auditing standards in the areas of audit planning,
evidence, working paper documentation, and supervision. In addition, our review
disclosed instances of auditors not obtaining adequate cost or pricing data.

We considered management comments on a draft of this memorandum.  DoD
Directive 7650.3 requires that recommendations be resolved promptly. Comments
provided by the Defense Contract Audit Agency were partially responsive. We request
that management reconsider its position and provide comments by October 8, 2014.

Table 1. Number of Recommendations Requiring DCAA Comment
                                                     Number of Recommendations
            Memorandum Number                           Requiring Comment
 Memorandum No.2                                                  4
 Memorandum No.3                                                  1
 Memorandum No.5                                                  1
 Memorandum No.8                                                  6
 Memorandum No.11                                                 2
 Memorandum No.13                                                 6
 Memorandum No.14                                                 1



Review Objective
As part of our oversight responsibility of DCAA, we evaluated a cross section of
16 DCAA audits completed between October 2011 and February 2013, including 5 audits
of forward-pricing proposals and 11 audits of incurred cost proposals and other
audit types. We reviewed the audits primarily to determine whether DCAA:



                                                                                       DODIG-2014-109 │ 1
                           •	 correctly applied applicable acquisition regulations and DCAA policy;

                           •	 determined the adequacy of contractor cost or pricing data (if applicable);

                           •	 gathered sufficient evidence in support of the reported opinion; and

                           •	 issued an audit report that adequately explained the audit findings and
                             met the contracting officer’s needs.

                 At the conclusion of each review, we issued a memorandum that identified the findings
                 and recommendations. The memoranda (see Attachments 1 through 16) served to
                 timely alert DCAA of any deficiencies we uncovered and to recommend that DCAA
                 initiate corrective action.

                 This evaluation focused primarily on DCAA’s compliance with applicable regulations
                 and certain aspects of DCAA policy on 16 audits. On August 21, 2014, the DoD Inspector
                 General issued a “Pass with Deficiency” rating to DCAA after performing a peer review
                 on DCAA’s system of quality control. We did not evaluate the DCAA system of quality
                 control or perform a comprehensive review of the 16 selected audits for compliance
                 with all professional standards.



                 Findings
                 We identified 1 or more significant inadequacies associated with 13 of the 16 DCAA
                 audits.   Our review of the 5 forward-pricing proposal audits disclosed instances
                 when DCAA did not:

                           •	 sufficiently advise contracting officers on the adequacy of cost or pricing
                             data (see Attachments 2, 5, 10, 11, and 13);

                           •	 adequately review the proposal for compliance with Cost Accounting
                             Standards (CAS) (see Attachments 2, 5, and 13);

                           •	 consider the work of a technical specialist (see Attachments 2, 5, 10, and 13);

                           •	 obtain sufficient evidence to support the opinion (see Attachments 2, 5,
                             and 11);

                           •	 obtain access to contractor accounting records (see Attachments 2 and 13); or

                           •	 effectively communicate with the contracting officer (see Attachment 11).




2 │ DODIG-2014-109
For the 11 incurred cost and other audits, we found examples when DCAA did not:

           •	 effectively plan the audit (see Attachments 1, 3, 6, 8, 14, 15, and 16);

           •	 obtain sufficient evidence to support the opinion (see Attachments 3, 6, 8,
             and 9);

           •	 appropriately supervise the audit (see Attachments 1, 3, and 15);

           •	 adequately document the work performed (see Attachments 1, 6, 9, and 15);

           •	 issue a report that correctly conveyed the findings (see Attachments 3, 6,
             and 16); or

           •	 accurately calculate recommended penalties (see Attachments 6, 9, and 15).


Management Actions
For two memoranda (Attachments 1 and 6), DCAA management provided us with
adequate written comments and planned corrective actions in response to seven
recommendations.        See Attachments 1-A and 6-A for the complete text of DCAA’s
comments. We require no additional comments on these two memoranda.


Recommendations, Management Comments and
Our Response
We recommend that the Defense Contract Audit Agency:

     1.	     Submit written comments on the findings and recommendations
             contained in Attachments 2, 3, 5, 8, 9, 10, 11, 13, 14, 15, and 16.

DCAA Comments and Our Response
Of the 87 recommendations contained in these 11 attachments, DCAA agreed with 63
and did not agree with 24. We request that DCAA reconsider its responses to 21 of
the 24 recommendations for which DCAA did not concur. See Attachment 17 for a
summary of the DCAA management comments and our response to each comment.
The full text of the management comments is included as Attachment 18.

     2.	     Provide training to all audit staff on the proper handling of superseded
             working papers.




                                                                                           DODIG-2014-109 │ 3
                 DCAA Comments
                 DCAA agreed in principle that all auditors should be aware of how to properly
                 handle superseded working papers. DCAA believes the required training and guidance
                 currently provided to auditors is sufficient to address the recommendation.


                 Our Response
                 The management comments are responsive, and no further comments are required.

                       3.	   Improve the reliability and accuracy of recommended penalties by:

                              a.	providing training to all audit staff covering the computation of
                                 recommended penalties and

                              b.	assessing the adequacy of, and making improvements to, existing
                                 Defense Contract Audit Agency policies and procedures to help
                                 ensure auditors correctly compute recommended penalties in
                                 accordance with Federal Acquisition Regulation 42.709.

                 DCAA Comments
                 DCAA agreed and stated the Agency is undertaking a project that will ensure a consistent
                 understanding of what cost principles are expressly unallowable. Once completed, DCAA
                 will incorporate the results of the project into existing training on the calculation of
                 recommended penalties.


                 Our Response
                 The management comments are responsive, and no further comments are required.


                 Scope and Methodology
                 We conducted this review from March 2012 through June 2013 in accordance with the
                 Council of the Inspectors General on Integrity and Efficiency “Quality Standards for
                 Inspection and Evaluation.” We selected 16 audits from a listing of DCAA reports issued
                 between October 2011 and February 2013. The following table lists the number of audits
                 by audit type and DCAA region.




4 │ DODIG-2014-109
Table 2. Number of Audits Selected for Review by Type and Location
   Type of        Field                             North-     Mid-
                             Central      Eastern                        Western   Totals
    Audit      Detachment                           Eastern   Atlantic
 Price                           1                     1          1         2         5
 Proposal
 Incurred           1                        1         1          1         2         6
 Cost
 Termination        1                                                                 1
 Iraq Direct                     1                                                    1
 Cost
 CAS                                                              1                   1
 Business                                                                   2         2
 Systems
   Totals           2            2           1         2          3         6        16


To accomplish our objective, we obtained a copy of each audit working paper package,
interviewed appropriate DCAA employees, and examined relevant documents.


Use of Computer-Processed Data
In selecting audits, we relied on a DCAA listing of reports from FYs 2012 and 2013
generated from the DCAA Management Information System. We did not selectively test
the listing for accuracy and completeness. However, the listing had no impact on the
results of our review of the 16 audits.


Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and DoD Inspector
General (IG) have issued several reports related to the quality of DCAA audits.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov/
and unrestricted DoD IG reports can be accessed at http://www.dodig.mil.

On August 21, 2014, the DoD Inspector General issued a “Pass with Deficiency”
rating to DCAA based on the performance of a peer review covering DCAA’s system of
quality control in effect between January 1, 2013, and June 30, 2013. As part of the
peer review, the DoD Inspector General examined 92 audits and found that 11 lacked
sufficient documentation to understand the judgments and conclusions drawn by the
DCAA auditor. The peer review involved a comprehensive review for compliance with
the professional standards and the DCAA system of quality control.




                                                                                            DODIG-2014-109 │ 5
                 In contrast to the peer review, this evaluation was focused primarily on DCAA’s
                 compliance with applicable regulations and certain aspects of DCAA policy. Like the
                 peer review, we did find instances where the audit documentation did not comply
                 with the GAGAS requirements for sufficiency of documentation. However, we did not
                 perform a comprehensive review of the 16 selected audits for compliance with all
                 professional standards or evaluate the DCAA system of quality control taken as a whole.

                 We appreciate the courtesies extended to our staff. Please direct any questions to
                 Ms. Carolyn R. Davis at (703) 604-8877 (DSN 664-8877), carolyn.davis@dodig.mil.




                 	                                            Randolph R. Stone
                 	                                            Deputy Inspector General
                 	                                            Policy and Oversight
                 Attachments:
                 As stated




6 │ DODIG-2014-109
               FOR OFFICIAL USE ONLY



Attachment 1




                                       DODIG-2014-109 │ 7
                 Attachment 1 (cont’d)




8 │ DODIG-2014-109
Attachment 1 (cont’d)




                        DODIG-2014-109 │ 9
                 Attachment 1 (cont’d)




10 │ DODIG-2014-109
Attachment 1 (cont’d)




                        DODIG-2014-109 │ 11
                 Attachment 1-A


                                                            CENTRAL REGION
                                                     DEFENSE CONTRACT AUDIT AGENCY
                                                         DEPARTMENT OF DEFENSE
                                                            6321 EAST CAMPUS CIRCLE DRIVE
                                                                  IRVING, TX 75063-2742


                      RAME-3                                                                      September 28, 2012

                      MEMORANDUM FOR INSPECTOR GENERAL, DEPARTMENT OF DEFENSE

                      SUBJECT:       Results of High Risk Review (HRR) Regarding Audit Assignment
                                     No. 3321 – 2009K10180035 (APO HRR Memorandum No. 1)

                         The DoD-IG reviewed the             Resident Office’s Assignment No. 3321-2009K10180035
                      and reported its conclusions from its review by memorandum dated May 23, 2012. The DoD-IG
                      concluded the following:

                         1. The        Resident Office did not appropriately adjust the audit scope for a significant
                            amount of claimed costs which the Iraq Branch Office examined in 2007, and whose
                            costs were suspended on DCAA Form 1 Notice No. 135 and negotiated by the cognizant
                            ACO on July 15, 2010.

                         2. The auditor that completed the assignment did not properly retain or supersede several
                            working papers in the Assignment No. 3321-2009K10180035 working paper file.

                         3. The        Resident Office reported $6,128,000 of questioned costs in the DCAA
                            Defense Management Information System (DMIS) under Audit Report No. 3321-
                            2009K10180035 which duplicated questioned costs previously reported by the Iraq
                            Branch Office under Audit Report No. 2131-2007R10180002 in 2007.

                         As a result of the findings listed above, the DoD-IG made recommendations regarding items
                      1 and 3. The DoD-IG did not make recommendations regarding retaining and/or superseding
                      working papers because the FAO conducted training on that subject shortly after the DoD-IG
                      evaluator completed employee interviews at the        Resident Office.

                          The DoD-IG recommendations and the Central Region responses to those recommendations
                      follow:

                         Recommendation 1. Director, Defense Contract Audit Agency should direct the Regional
                      Director, DCAA Central Region to provide training to all Resident Office audit staff on how to
                      properly tailor the audit scope for the receipt of assist audits and negotiated settlements.

                          DCAA Response to Recommendation 1. The Central Region will provide training to all audit
                      staff at the    Resident Office on how to properly tailor the audit scope for the receipt of assist
                      audits and negotiated settlements by October 31, 2012. The training will be provided at a
                      scheduled Field Audit Office Staff Conference.




12 │ DODIG-2014-109
Attachment 1-A (cont’d)




                          DODIG-2014-109 │ 13
                 Attachment 2




14 │ DODIG-2014-109
Attachment 2 (cont’d)




                        DODIG-2014-109 │ 15
                 Attachment 2 (cont’d)




16 │ DODIG-2014-109
Attachment 2 (cont’d)


  Contract Management Agency (DCMA) engineer 2 validate the original estimate of proposed
  direct labor hours as a part of the DCMA technical engineering review. On August 5, 2011, the
  DCAA auditor advised               Defense that DCAA had its own audit to complete and
  requested           Defense provide the previously requested incurred labor hours.
  Defense responded that the existing contract lacked a requirement to track and record actual
  labor hours and that this information was not available.         Defense never provided the
  requested incurred labor records.

  DCAA audit policy at DCAM 1-504.5 Resolution of Contractor Denials provides procedures the
  auditor should follow when access to contractor records is not forthcoming. These include
  (i) attempting to resolve the issue with responsible contractor officials authorized to make
  decisions and (ii) following the procedures cited in DCAA Instruction 7640.17. If the
  performance of these procedures do not result in auditor access to the denied records, DCAM
  provides that the DCAA regional office should consider requesting that DCAA Headquarters
  subpoena the records in accordance with DCAA Regulation No. 5500.5. Finally, DCAM
  1-504.6 provides that when the contractor denies the auditor access to records/data, the costs
  affected by the denial should be questioned under price proposal audits.

  If a contractor’s records are inadequate or not in a condition for audit, DCAM 1-506 provides
  that the auditor should immediately bring the deficiency to the contractor’s attention. If the
  contractor does not take prompt corrective action, the auditor is to notify the regional office and
  the requesting procurement activity. DCAM 1-506c provides that any reports issued under these
  circumstances should contain appropriate comments on all the facts with any necessary
  disclaimer, adverse opinion, qualifications, and/or explanations of questioned costs.

  DCAA did not comply with FAR 15.404-2(d) and notify the JPO contracting officer that either
  (i) the          Defense accounting records were so deficient as to preclude a review or audit of
  direct labor hours or (ii) that        Defense was not providing records considered essential to
  conduct a satisfactory audit. DCAA also did not comply with DCAM and pursue access to the
  requested incurred labor records or determine that the records were so deficient as to preclude an
  audit. Instead DCAA completed its audit and issued its audit report without ever having audited
  the           Defense incurred labor hour accounting records or determining that the records were
  so deficient as to preclude and audit.

  Recommendation B

  By September 30, 2012, the DCAA Branch Manager, Chicago Branch Office, should provide the
  audit staff with training on FAR 15.404-2(d), DCAM 1-504 Access to Records of Contractor,
  and DCAM 1-506 Other Access to Records Issues – Records Destroyed or Not in Condition for
  Audit and should implement procedures for audit staff use in documenting and pursuing to
  completion any future instances of possibly deficient contractor accounting records or potential
  contractor denial of access to records.




  2
   On August 1, 2011, DCAA requested DCMA technical engineering assistance with the evaluation of the
  Defense proposed labor hours.
                                                       4
                                     FOR OFFICIAL USE ONLY




                                                                                                        DODIG-2014-109 │ 17
                 Attachment 2 (cont’d)




18 │ DODIG-2014-109
Attachment 2 (cont’d)


             Costs should be classified as unsupported when the contractor does
             not furnish sufficient documentation to enable a definitive
             conclusion and the insufficiency is not caused by contractor denial
             of records.

  DCAA should have pursued access to the              Defense records until such records were
  obtained. If the records could not be obtained, DCAA should have reported the proposed labor
  costs as questioned cost in accordance with DCAM 1-504. If DCAA had obtained the requested
  records and found they were so deficient as to preclude an audit, DCAA should have complied
  with DCAM 1-506 and reported all the facts with any necessary disclaimer, adverse opinion,
  qualifications, and/or explanations of questioned costs.

  Recommendation C

     1. By September 30, 2012, the DCAA Branch Manager, Chicago Branch Office should
        establish procedures for supervisory auditor use in documenting the satisfactory
        resolution of any identified potential CAS noncompliances identified in the audit working
        papers.

     2. By September 30, 2012, the DCAA Regional Audit Manager with cognizance of the
        Chicago Branch Office should implement quarterly reviews of the Chicago Branch
        Office. The quarterly reviews should determine whether any reported contractor
        unsupported costs are the result of a potential contractor denial of access to accounting
        records and data, and should document for the record the results of each quarterly review.

  Finding D. DCAA requested DCMA technical assistance without testing the
          Defense data

  DCAA requested DCMA technical assistance in its examination of              Defense
  proposed direct labor hours and direct material kinds and quantities. DCAA did not
  make appropriate tests of the          Defense accounting data provided to and used by
  the DCMA engineer. DCAM D-101d provides that:

             “The auditor is also required to make appropriate tests of
             accounting data provided to and used by the specialist.”

  Regarding proposed direct labor hours, DCMA reported on Sept. 15, 2011 that it was:

             “…unable to obtain supporting documentation (historical data,
             manufacturing router information, contract invoices etc) that was
             used by           to develop the summary information provided in
             the proposal. As a result, DCMA was not able to verify the direct
             labor hours required for wrecker integration.”

  Regarding proposed material costs, DCMA reported on August 12, 2011 that:



                                                 6
                                 FOR OFFICIAL USE ONLY




                                                                                                     DODIG-2014-109 │ 19
                 Attachment 2 (cont’d)




20 │ DODIG-2014-109
Attachment 2 (cont’d)




                        DODIG-2014-109 │ 21
                 Attachment 3

                                                          INSPECTOR GENERAL
                                                           DEPARTMENT OF DEFENSE
                                                           4800 MARK CENTER DRIVE
                                                        ALEXANDRIA, VIRGINIA 22350-1500




                                                                                                     July 19, 2012

                      MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY
                                     REGIONAL DIRECTOR, DEFENSE CONTRACT AUDIT
                                      AGENCY WESTERN REGION

                      SUBJECT:       Results of High Risk Review Regarding Audit Assignment No. 4551–
                                     2009B11010001 (APO HRR Memorandum No. 3, Project No. D2012-DIP0AI-
                                     0013.000)

                              This memorandum sets forth the results of our review of Defense Contract Audit Agency
                      (DCAA) Assignment No. 4551-2009B11010001, involving the audit of a contractor’s billing
                      system and related internal controls. Our review disclosed that the field audit office (FAO) spent
                      an excessive number of hours auditing a billing system that is no longer in use, reported on
                      transaction tests that were not current or relevant, and recommended the withholding of
                      contractor payments without sufficient evidence.

                      Background
                              As part of our continuous oversight of DCAA, we initiated an effort to periodically select
                      and review audit assignments performed in areas we identified as “high risk.” (also referred to as
                      high-risk reviews) Our second selection under this high-risk review effort was DCAA
                      Assignment No. 4551-2009B11010001.

                             Under Assignment No. 4551-2009B11010001, an FAO in San Diego, California,
                      examined the billing system internal controls for a major DOD contractor to determine if the
                      system had significant deficiencies and material weaknesses. On November 17, 2011, the FAO
                      reported that the billing system had 16 significant deficiencies which could have resulted in
                      overstated interim and final vouchers. The FAO recommended that the contracting officer
                      suspend a percentage of progress payments or reimbursed costs in accordance with Defense
                      Federal Acquisition Regulation Supplement (DFARS) 242.7502.

                              During the planning and fieldwork stages of Assignment No. 4551-2009B11010001, the
                      contractor transitioned from a Systems, Applications and Products (SAP)-based billing system
                      (hereafter referred to as the “legacy” system) to a Deltek-Costpoint based billing system
                      (hereafter referred to as the “new” system). The FAO elected to extensively test and report on
                      both the legacy and new billing systems. The FAO statistically sampled and tested billing
                      system transactions from both systems processed between December 1, 2007 and May 10, 2010,
                      to support its reported opinion. FAO auditors spent 7,416 hours to complete the audit. The
                      contractor completed the transition to the new billing system on January 22, 2010, nearly one
                      year and 10 months before the FAO issued its report on November 17, 2011.




                                                       FOR OFFICIAL USE ONLY




22 │ DODIG-2014-109
Attachment 3 (cont’d)


          Prior to Assignment No. 4551-2009B11010001, the FAO last reported in Audit Report
  No. 4171-2003B11010001, December 20, 2005, that the same contractor’s billing system and
  related internal controls were adequate. In 2009, however, the Government Accountability
  Office (GAO) concluded that the FAO did not perform sufficient or adequate testing in support
  of the reported opinion in part because the testing was over two years old by the time the FAO
  issued the audit report (See Page 99 of GAO Report No. GAO-09-468). As a result, the FAO
  rescinded Report No. 4171-2003B11010001 on April 7, 2009.

  Objective and Scope of High-Risk Review
  We reviewed Assignment No. 4551-2009B11010001 to determine if the FAO:

             •   correctly applied appropriate criteria such as the Federal Acquisition Regulations,
                 DFARS, and Cost Accounting Standards;
             •   followed key Agency procedures and guidance;
             •   gathered sufficient evidence in support of the reported findings and
                 recommendations; and
             •   issued an audit report that adequately described the findings and
                 recommendations and served a useful purpose to the contracting officer.

         To accomplish the objective, we obtained a copy of the assignment working paper
  package, conducted face-to-face interviews of appropriate DCAA employees, and reviewed other
  relevant documents. We did not perform a comprehensive review of Assignment Number 4551-
  2009B11010001 for compliance with all generally accepted government auditing standards.

  Results of High-Risk Review
         Our review disclosed that the testing performed by the FAO on the billing system was
  comprehensive and well documented. However, we also found that the FAO, (1) expended an
  excessive amount of time testing the legacy system, and (2) reported on the results of tests that
  were not current.

  Excessive Testing of Legacy System
          Based on our review of the working papers for Assignment No. 4551-2009B11010001,
  we learned that the FAO planned and conducted roughly an equal amount of sample tests for
  both the legacy and new billing systems. For both the legacy and new billing systems, FAO
  auditors conducted numerous sample tests of all relevant controls discussed in the standard
  DCAA billing system audit program. Although the working papers do not break out all hours
  incurred between the legacy and new systems, we estimate that FAO auditors dedicated
  approximately 48 percent of their time to reviewing and reporting on the legacy system, which
  equates to 3,560 hours of the 7,416 total hours charged to the assignment. In the planning stage
  of the assignment, the FAO manager instructed the lead auditor to expend about one-third of her
  time on the legacy system and two thirds on the new system.

          We question the FAO’s decision to plan and expend such a large amount of resources on
  a legacy system that would no longer be in use by audit completion. From the inception of the
  audit, the FAO knew the contractor was transitioning to the new billing system, and the

                                                   2
                                   FOR OFFICIAL USE ONLY




                                                                                                       DODIG-2014-109 │ 23
                 Attachment 3 (cont’d)


                      contractor would complete the transition by early 2010. Two of the contractor’s major business
                      units had already transitioned to the new system prior to the commencement of any audit field
                      work, and the remaining business units were transitioned by January 23, 2010 (six months before
                      completion of the FAO’s transaction testing). The FAO explained to us that the auditors
                      reviewed both billing systems because:

                                 •   both systems were operational during part of the time the FAO performed the
                                     testing; and
                                 •   some ongoing projects included costs that were converted from the legacy billing
                                     system.

                              While limited testing of the legacy system might have been justified, the FAO should not
                      have expended the resources it did to audit a system that would not exist in the near term. The
                      FAO should have significantly reduced its audit scope of the legacy system as a result of the
                      transition. For example, rather than test all legacy system controls, the FAO could have
                      justifiably limited its testing to those controls associated with the contractor’s conversion of costs
                      to the new system. Conducting a full audit of the legacy system internal controls was not useful
                      to the contracting officer or reflective of the audit risk to the Government.

                              Our review of Agency guidance on audits of contractor business systems (including
                      billings systems) disclosed no specific guidance on the tailoring of audit steps or approach while
                      contractors transition from one system to another. The lack of agency-wide policies and
                      procedures could result in significant wasted audit resources, and an inconsistent approach to
                      auditing major business systems during a system transition. DCAA should develop such
                      procedures to ensure that auditors take into account the limited risk associated with contractor
                      business systems that will be phased out in the near future.

                      Non-Current Testing
                              The auditor tested contractor billing system transactions that took place between
                      December 2007 and May 2010. However, the FAO did not issue its report on the billing system
                      until November 17, 2011, one year and six months after the last tested transaction. The oldest
                      tested transaction was nearly four years old. As such, the FAO’s testing was untimely and not
                      necessarily an accurate reflection of the current billing system. This is a repeated deficiency
                      because GAO also noted in Report No. GAO-09-468, September 2009 (Page 99) that testing
                      associated with the FAO’s 2005 billing system audit of the same contractor was untimely and did
                      not support the reported opinion.

                              Although the FAO restricted the reported audit opinion to the time period tested
                      (December 2007 through May 2010), we question the usefulness of this opinion since the tested
                      transactions were up to four years old. In accordance with DFARS 242.7502(c), the contracting
                      officer, in consultation with the auditor or technical specialist, is responsible for determining the
                      acceptability of the contractor’s current accounting system (which includes the billing system),
                      approving or disproving it, and withholding a percentage of billings if significant deficiencies
                      exist. Untimely reporting of deficiencies often precludes contracting officers from taking actions
                      that might be necessary to protect the Government’s interests until the contractor corrects system
                      deficiencies.

                                                                        3
                                                        FOR OFFICIAL USE ONLY




24 │ DODIG-2014-109
Attachment 3 (cont’d)



          As a result of the untimely testing, the FAO also did not have sufficient evidence to
  recommend contractor withholdings in this case. Therefore, the FAO should supplement the
  report to remove the recommendation for contractor withholdings.

          We examined the factors which contributed to the untimely testing and noted that the
  FAO took one year and four months after testing to issue the report. While the auditor took only
  one month and 19 days to prepare the initial draft report, the FAO spent the remaining time (over
  one year and two months) performing several management/technical reviews, editing the report
  format, and incorporating the contractor’s response. GAO noted that the same FAO took two
  years to issue the 2005 report after completion of testing.

          In DOD Inspector General Report No. D-2011-6-011, September 21, 2011, we
  substantiated an allegation that DCAA had no written agency-wide policy or guidance regarding
  the need to perform testing of “current” data to support an opinion of a contractor business
  system. We recommended that DCAA Headquarters develop agency-wide policy and guidance
  on the need to test current data to support such opinions. In response, DCAA issued
  Memorandum For Regional Director 12-PAS-012(R), April 24, 2012, emphasizing in part that
  timely reporting is essential and that every effort should be made to plan and perform the audit
  and issue the audit report within a timeframe which avoids the elapse of excessive time between
  the tested transactions and the report date. Since January 2012, DCAA Headquarters has
  required that auditors use a milestone plan to assist them in this effort.

         Due to the repeated instances of untimely reporting, DCAA should perform a detailed
  review of the San Diego FAO’s report preparation and review processes to ensure compliance
  with current DCAA policy and make any other improvements necessary to reduce the cycle time
  between completion of testing procedures and report issuance.

  Recommendations
  1.   We recommend that the Director, Defense Contract Audit Agency:

         a. Develop policy and guidance on the tailoring of audit steps and approaches to
            auditing a business system while a contractor transitions from one system to another.

         b. Perform a review of the report preparation and review processes employed at the San
            Diego field audit office to ensure compliance with current DCAA policy and to make
            any other improvements necessary to reduce the cycle time between completion of
            testing procedures and report issuance.

  2.   We recommend that the Director, Defense Contract Audit Agency direct the Regional
       Director, DCAA Western Region, to supplement Audit Report No 4551-2009B11010001
       in order to remove the recommendation for withholding a percentage of contractor
       payments.




                                                  4
                                   FOR OFFICIAL USE ONLY




                                                                                                      DODIG-2014-109 │ 25
                 Attachment 3 (cont’d)




26 │ DODIG-2014-109
Attachment 4




               DODIG-2014-109 │ 27
                 Attachment 4 (cont’d)




28 │ DODIG-2014-109
Attachment 5




               DODIG-2014-109 │ 29
                 Attachment 5 (cont’d)




30 │ DODIG-2014-109
Attachment 5 (cont’d)




                        DODIG-2014-109 │ 31
                 Attachment 5 (cont’d)




32 │ DODIG-2014-109
Attachment 5 (cont’d)




                        DODIG-2014-109 │ 33
                 Attachment 5 (cont’d)




34 │ DODIG-2014-109
Attachment 5 (cont’d)




                        DODIG-2014-109 │ 35
                 Attachment 5 (cont’d)




36 │ DODIG-2014-109
Attachment 5 (cont’d)




                        DODIG-2014-109 │ 37
                 Attachment 5 (cont’d)




38 │ DODIG-2014-109
Attachment 5 (cont’d)




                        DODIG-2014-109 │ 39
                 Attachment 5 (cont’d)




40 │ DODIG-2014-109
Attachment 5 (cont’d)




                        DODIG-2014-109 │ 41
                 Attachment 6


                                                          INSPECTOR GENERAL
                                                        DEPARTMENT OF DEFENSE
                                                        4800 MARK CENTER DRIVE
                                                     ALEXANDRIA, VIRGINIA 22350-1500




                                                                                                    December 18, 2012

                      MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY
                                     REGIONAL DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY
                                      NORTHEASTERN REGION

                      SUBJECT: Results of High Risk Review (HRR) Regarding Audit Assignment No. 2701–
                               2006A10100002 (APO HRR Memorandum No. 6, Project No. D2012-DIP0AI-
                               0013.000)

                              This memorandum sets forth the results of our review of Defense Contract Audit Agency
                      (DCAA) Assignment No. 2701-2006A10100002, involving DCAA Bay States Branch Office’s
                      audit of an incurred cost submission of a major DOD contractor. We recommend that the field
                      audit office (FAO) supplement the audit report to include required audit qualifications, complete
                      Mandatory Annual Audit Requirement (MAAR) No. 5, and obtain sufficient audit evidence
                      related to consultant costs. In addition, the FAO should assess and document its consideration of
                      potential irregularities and report the matter in a Form 2000 if warranted. These and other noted
                      deficiencies are discussed in the Results of High Risk Review section below.

                      Background
                              As part of our continuous oversight of DCAA, we initiated an effort to periodically select
                      and review audit assignments performed in areas we identified as “high risk” (also referred to as
                      high-risk reviews). We selected DCAA Assignment No. 2701-2006A10100002 as part of this
                      high risk review effort.

                              Under Assignment No. 2701-2006A10100002, the DCAA Bay States Branch Office
                      examined the 2006 incurred cost submission of a major DOD contractor. The purpose of the
                      examination was to determine allowability of direct and indirect costs and recommend contracting
                      officer-determined indirect cost rates for the period January 1, 2006 through December 31, 2006.
                      On February 29, 2012, the DCAA Bay States Branch Office issued Audit Report No. 2701-
                      2006A10100002, questioning the following costs:




                                                       FOR OFFICIAL USE ONLY




42 │ DODIG-2014-109
Attachment 6 (cont’d)



                        Cost Element                       Proposed         Questioned
                                                             Cost             Cost
         Direct Costs                                     $346,732,718
           Subcontract costs                                                $11,227,228

         Indirect Costs                                   $ 61,606,462
           DCAA allocation intercompany assist                              $( 411,183)
         audits
           Direct costs claimed as indirect expenses                             328,217
              Net Indirect Cost Questioned                                  $(   82,966)

         Allocation Base                                  $375,422,109
           General & Administrative Expense                                 $(1,561,382)

  Objective and Scope of High-Risk Review
  We reviewed the assignment to determine if the FAO:
           • correctly applied appropriate criteria such as the Federal Acquisition Regulation
               (FAR), Defense Federal Acquisition Regulation Supplement, and Cost
               Accounting Standards;
           • followed key Agency procedures and guidance;
           • gathered sufficient evidence in support of the reported findings and
               recommendations; and
           • issued an audit report that adequately described the findings and
               recommendations and served a useful purpose to the contracting officer.

         To accomplish the objective, we obtained a copy of the assignment working paper
  package, interviewed appropriate DCAA employees, and reviewed other relevant documents.
  We did not perform a comprehensive review of Assignment No. 2701-2006A10100002 for
  compliance with all generally accepted government auditing standards (GAGAS).

  Results of High-Risk Review
           Our review of Assignment No. 2701-2006A10100002 disclosed exceptions with the
  criteria applied, procedures followed, evidence gathered, and findings and recommendations
  reported. Details of the exceptions are as follows:

  Audit Planning
     1. The auditor did not document an understanding of internal controls that are material to
        the subject matter in order to plan the engagement and design procedures to achieve the
        objectives of the attestation engagement, as required by:


                                            2
                                  FOR OFFICIAL USE ONLY




                                                                                                  DODIG-2014-109 │ 43
                 Attachment 6 (cont’d)


                                 •   GAGAS 6.10, Internal Control;
                                 •   DCAA Contract Audit Manual (CAM) 2-306, Internal Controls; and
                                 •   DCAA CAM 5-101, 5-102, 5-103.1d, Obtaining and Understanding of a
                                     Contractor’s Internal Controls and Assessing Control Risk.

                      Since the contractor implemented a new Enterprise Resource Planning (ERP) system (including
                      a new accounting system) on January 1, 2006 that had not been reviewed, the auditor could no
                      longer rely on the results of prior reviews as a basis for obtaining an understanding of the
                      internal controls. Although the auditor set control risk at maximum and increased testing to
                      mitigate risk of loss to the government, the auditor should have still documented an
                      understanding of the key processes and applicable policies and procedures related to the cost
                      areas being evaluated.

                      Because the audit covers 2006 incurred costs, it might not be practical for the FAO to develop
                      and document an understanding of the contractor’s internal controls that were in effect six years
                      ago. However, the FAO needs to emphasize to the audit staff the requirement for documenting
                      the relevant internal controls in current and future audits.

                         2. The auditor did not perform MAAR 5, which requires that the auditor review the
                            complete set of internal financial statements, such as the general ledger and trial balance.
                            The auditor considered the expense statement only. The complete general ledger was not
                            evaluated for other income or credits that could potentially result in decreased costs to the
                            Government. Examples of these other income or credits include purchase discounts, sale
                            of scrap, royalty income, and capitalized losses. MAAR 5, Miscellaneous Income and
                            Credits, states in part:

                                        The auditor should evaluate the contractor's internal financial statements,
                                        to include the general ledger, trial balance and other subsidiary ledgers to
                                        identify any income or credits in which the Government should share as
                                        well as to evaluate the exclusion of any adjustments not reflected by the
                                        contractor in contract costs.


                      Therefore, to effectively perform MAAR 5, the auditor should examine the complete general
                      ledger, trial balance and other subsidiary ledgers to identify any income or credits which the
                      Government should share, and evaluate the exclusion of any adjustments not reflected by the
                      contractor in claimed contract costs.

                      Reported Scope of Audit
                      Under the scope of audit section of the report, the internal control system paragraph indicates
                      that the contractor’s accounting system is adequate for accumulating, reporting, and billing costs
                      on Government contracts. The FAO had no basis for making this statement because the
                      contractor implemented a new accounting system that the FAO had not reviewed. The statement
                      should be consistent with the paragraph addressing the accounting system included in the
                      Contractor’s Organization and Systems section of the report, which states:



                                                                   3
                                                         FOR OFFICIAL USE ONLY




44 │ DODIG-2014-109
Attachment 6 (cont’d)


               Effective January 1, 2006 [the contractor] has implemented a new Oracle
               Enterprise Resource Planning (ERP) system. The implementation affects
               virtually all accounting and internal control systems by replacing the majority of
               their legacy systems. We have not yet performed examinations of the
               company’s Labor System, Accounting System and Billing System to determine
               if the new implemented systems can be relied upon to produce reliable cost data.
               Until such time as those audits are complete, our audits will include expanded
               testing of cost data to provide a reasonable basis for our opinion. (contractor
               name omitted)

  Reported Qualifications
    1. In accordance with DCAA CAM 10-210.4 and 10.504.4, Qualifications, the report
       requires a qualification for the $4.5 million in unresolved cost allocated from a related
       company that is considered material to the subject matter. The FAO should supplement
       the report to add this qualification.
    2. In accordance with DCAA CAM 10-504.5b, Results of Audit, the direct cost opinion
       paragraph requires an “except for” qualification statement related to the $47.9 million in
       unresolved direct cost. The FAO should supplement the report to add the “except for”
       qualification.
    3. The first qualification statement relating to unresolved assist audit subcontract cost states,
       “These assist audit results do not impact the indirect expense rates of the prime contractor
       for this fiscal year.” This statement is inaccurate since any adjustment to the final direct
       subcontract cost could impact the rates that include subcontract costs in the allocation
       base. For this contractor, the impacted rates would include the Procurement, General &
       Administrative expense, and Cost of Money rates. In addition, the assist audit results
       could impact the calculation of penalties since subcontract costs are included in the base
       for determining applicable penalties. Therefore, the FAO should supplement the report to
       remove this qualification.

  Field Work
    1. In Exhibit A (G&A), Note 6 and Exhibit G (Penalties), the auditor incorrectly identified
       and applied a penalty to an unreasonable training cost which is not specifically
       unallowable under FAR 31.205 and is therefore not subject to a penalty. Accordingly,
       the FAO should supplement the report to remove the penalties applied to unreasonable
       training costs.
    2. The auditor accepted the claimed cost for Professional Service Cost of a consultant based
       solely on the review of a consulting agreement. The working papers do not include
       sufficient audit evidence to support this conclusion. GAGAS 7.55 – 7.71 and DCAA
       CAM 2-506, Obtaining Sufficient, Appropriate Audit Evidence, requires auditors to
       obtain sufficient, appropriate audit evidence to provide a reasonable basis for their
       findings and conclusions. The working papers do not support that the auditor adequately
       considered the specific documentation requirements of FAR 31.205-33(f), Professional
       and Consultant Service Costs. FAR 31.205-33(f) states in part:
               …fees for services rendered are allowable only when supported by
               evidence of the nature and scope of the service furnished. Evidence

                                              4
                                    FOR OFFICIAL USE ONLY




                                                                                                        DODIG-2014-109 │ 45
                 Attachment 6 (cont’d)


                                     necessary to determine that work performed is proper and does not
                                     violate law or regulation shall include details of all agreements,
                                     invoices to include details as to the nature and timing of work and the
                                     consultant’s work product to include related documents, trip reports
                                     and collateral information.

                      Therefore, to conclusively determine the allowability of the consultant costs, the auditor needs to
                      perform additional field work to examine the consultant invoices, work product, related trip
                      reports and any other documentation necessary to support the nature and scope of the services
                      rendered.

                      Reporting
                         1. The auditor questioned direct costs in excess of $11 million, which represents the entire
                            direct cost claimed under Subcontract Agreement No. S-2789. In Exhibit F, Note 1, the
                            auditor discusses eight strong indicators of potential irregular activity for which the
                            issuance of a Form 2000 should be considered as recommended by GAGAS and DCAA
                            policy.

                      GAGAS 6.33, Reporting Deficiencies in Internal Control, Fraud, Illegal Acts, Violations of
                      Provisions of Contracts or Grant Agreements and Abuse, states:

                                     For attestation engagements, auditors should report, as applicable to the
                                     objectives of the engagement, and based upon the work performed, (1)
                                     significant deficiencies in internal control, identifying those considered
                                     to be material weaknesses; (2) all instances of fraud and illegal acts
                                     unless inconsequential; and (3) violations of provisions of contracts or
                                     grant agreements and abuse that could have a material effect on the
                                     subject matter of the engagement.

                      DCAM 2-404(c), Reporting Deficiencies in Internal Controls, Fraud, Illegal Acts, Violations of
                      Provisions of Contracts, states:

                                     …when fraud or suspected irregularities are discovered, DCAA should issue a
                                     Form 2000 instead of including the matter in a report. Therefore, the auditor
                                     should document the consideration of the above circumstances as a suspected
                                     irregular activity and report the matter if warranted (preferably using a Form
                                     2000).

                         2. In Appendix 2, the auditor included a Schedule of Claimed Direct Cost by Contract
                            which serves no useful purpose. Moreover, the use of this schedule may result in
                            unintended consequences because it does not identify significant unresolved and
                            questioned costs, including $47,858,158 in unresolved costs, $11,227,728 in questioned
                            costs, and $1,489,307 in expressly unallowable intercompany profits. Accordingly, the
                            FAO should supplement the report to remove this schedule.

                      Recommendations
                            We recommend that the Director, Defense Contract Audit Agency direct the Northeastern
                      Regional Director to:


                                                                     5
                                                           FOR OFFICIAL USE ONLY




46 │ DODIG-2014-109
Attachment 6 (cont’d)




                        DODIG-2014-109 │ 47
                 Attachment 6-A



                                                              NORTHEASTERN REGION
                                                             DEFENSE CONTRACT AUDIT AGENCY
                                                                 DEPARTMENT OF DEFENSE
                                                                59 LOWES WAY, SUITE 300
                                                           LOWELL, MASSACHUSETTS 01851-5150
                      IN REPLY REFER TO:

                      RD-2 225.2.B                                                                     May 13, 2013

                      MEMORANDUM FOR THE ASSISTANT INSPECTOR GENERAL FOR AUDIT POLICY
                                AND OVERSIGHT, DEPARTMENT OF DEFENSE, 4800 MARK CENTER
                                DRIVE, ALEXANDRIA, VIRGINIA 22350-1500

                      ATTENTION: Carolyn R. Davis, Assistant Inspector General

                      SUBJECT: Response to Inspector General (IG) December 18, 2012 Memorandum on the
                               Results of High Risk Review (HRR) Regarding DCAA Audit Assignment No.
                               2701–2006A10100002

                      REFERENCE: APO HRR Memorandum No. 6, Project No. D2012-DIP0AI-0013.000

                             The referenced APO Memorandum transmitted the results of the Inspector General’s
                      High Risk Review regarding DCAA Audit Assignment No. 2701–2006A10100002. This
                      memorandum documents the corrective actions taken by the Field Audit Office (FAO) in
                      response to the cited recommendations in the referenced memorandum. The cited
                      recommendations and our responses are as follows:

                                1. IG Recommendation:

                                 Advise the Contracting Officer that the FAO will supplement the report to correct
                      several reported errors and omissions.

                                1. DCAA Response:

                                The FAO notified                       , DCMA Divisional Administrative Contracting
                      Officer (DACO), in Memorandum No. 2013-005 (See Enclosure 1) dated January 29, 2013, that
                      a supplemental audit report would be issued to address the issues identified by the IG.

                                2. IG Recommendation:

                               Perform a review of MAAR 5 to identify any other income or credits which the
                      Government might be entitled to receive.

                                2. DCAA Response:

                                 The FAO performed additional audit steps relative to MAAR 5 to identify any other
                      income or credits which the Government might be entitled to receive. See Note 11 of Exhibit A


                                                                  2
                                                        FOR OFFICIAL USE ONLY




48 │ DODIG-2014-109
Attachment 6-A (cont’d)

 RD-2 225.2.B                                                            May 13, 2013
 SUBJECT: Response to Inspector General (IG) December 18, 2012 Memorandum on the Results of
           High Risk Review (HRR) Regarding DCAA Audit Assignment No. 2701–
           2006A10100002

 (Page 17) of Audit Report No. 2701–2006A10100002–S1 (See Enclosure 2), dated April 30, 2013, for
 the audit results.

        3. IG Recommendation:

            Re-examine claimed consultant costs, ensuring that the auditor adequately considers the
 specific documentation requirements for consultant costs contained in FAR 31.205-33(f).

        3. DCAA Response:

            The FAO performed additional audit steps relative to claimed consultant costs to determine
 allowability pursuant to FAR 31.205-33(f). See Note 15 of Exhibit A (Page 21) of Audit Report No.
 2701–2006A10100002–S1 (See Enclosure 2) dated April 30, 2013, for the audit results.

        4. IG Recommendation:

            Prepare and issue a supplemental report in accordance with DCAA CAM 10-214 to:

            a.   correct the reported qualifications;
            b.   revise the recommended penalties;
            c.   remove the Schedule of Claimed Direct Cost by Contract; and if necessary
            d.   incorporate the results of performing the MAAR 5 and re-examining claimed consultant
                 costs (discussed in Recommendations 2. and 3. above).

        4. DCAA Response:

            The FAO issued Supplemental Audit Report 02701-2006A10100002-S1 (See Enclosure 2)
 dated April 30, 2013 to                   , DCMA DACO, in accordance with DCAA CAM 10-214
 that address the IG’s recommendations as follows:

            a. included a qualification related to $4.5 million in unresolved           allocation costs
               (See Note 4 on Page 4 of Enclosure 2); we also included the “except for” language in
               our results section to reference the qualification for the $47.9 million unresolved direct
               costs (See Page 5 of Enclosure 2);
            b. revised the recommended penalties to correct Exhibit A, Note 6 (Page 12 of Enclosure
               2) to remove the penalty recommendation on unreasonable training costs and revised
               Exhibit G, Penalty Schedule (Page 48 of Enclosure 2) accordingly;
            c. replaced the Schedule of Claimed Direct Cost by Contract with the Schedule of
               Government Cost-Reimbursement and Flexibly Priced Contracts and Subcontracts (See
               Appendix 2 of Page 54 of Enclosure 2) to exclude dollar values associated with the
               schedule of contracts; and
            d. incorporated the results of our expanded audit steps related to MAAR 5 (See Page 17 of
               Enclosure 2) and claimed consultant costs (See Page 21 of Enclosure 2) as discussed in
               Responses 2. and 3. above.



                                               2
                                     FOR OFFICIAL USE ONLY




                                                                                                            DODIG-2014-109 │ 49
                Attachment 6-A (cont’d)




50 │ DODIG-2014-109
Attachment 7




               DODIG-2014-109 │ 51
                 Attachment 7 (cont’d)




52 │ DODIG-2014-109
Attachment 8

                                       INSPECTOR GENERAL
                                        DEPARTMENT OF DEFENSE
                                        4800 MARK CENTER DRIVE
                                     ALEXANDRIA, VIRGINIA 22350-1500




                                                                                 January 24, 2013

  MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY
                 REGIONAL DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY
                  WESTERN REGION

  SUBJECT: Results of High Risk Review (HRR) Regarding Audit Assignment No. 4411-
           2005X10100017 (APO HRR Memorandum No. 8
           (Project No. D2012-DIP0AI-0013.000)

         This memorandum sets forth the results of our review of Defense Contract Audit Agency
  (DCAA) Assignment No. 4411-2005X10100017, involving an audit of a DoD contractor’s
  claimed incurred cost for 2005. Our review of the audit assignment disclosed that the auditor did
  not:

                 •   complete all mandatory annual audit requirements;
                 •   perform tests on audit criteria cited in the report; and
                 •   review the contractor's IRS Forms 941.

  Background
          As part of our continuous oversight of DCAA, we initiated an effort to periodically select
  and review audit assignments performed in areas we identified as “high risk” (also referred to as
  high-risk reviews). We selected DCAA Assignment No. 4411-2005X10100017 as part of this
  effort.

          Under Assignment No. 4411-2005X10100017, the field audit office (FAO) examined the
  contractor’s June 30, 2006 certified final corporate home allocation proposal and related books
  and records for reimbursement of 2005 incurred costs. The FAO performed the examination to
  determine the allowability, allocabiltiy, and reasonableness of claimed corporate allocations
  totaling $158 million and fringe benefit costs of $172 million. On January 30, 2012, the FAO
  issued audit report 4411-2005X10100017, questioning $20,786,742 of claimed corporate
  allocations.

  Objective and Scope of High-Risk Review
         We reviewed Assignment No. 4411-2005X10100017 to determine if the FAO:

                 •   correctly applied appropriate criteria such as the Federal Acquisition
                     Regulation (FAR), Defense Federal Acquisition Regulation Supplement, and
                     Cost Accounting Standards (CAS);
                 •   followed key agency procedures and guidance;




                                  FOR OFFICIAL USE ONLY




                                                                                                       DODIG-2014-109 │ 53
                 Attachment 8 (cont’d)




54 │ DODIG-2014-109
Attachment 8 (cont’d)




                        DODIG-2014-109 │ 55
                 Attachment 8 (cont’d)




56 │ DODIG-2014-109
Attachment 9

                                      INSPECTOR GENERAL
                                       DEPARTMENT OF DEFENSE
                                       4800 MARK CENTER DRIVE
                                    ALEXANDRIA, VIRGINIA 22350-1500




                                                                                       April 1, 2013

  MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY
                 REGIONAL DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY
                  WESTERN REGION

  SUBJECT: Results of High Risk Review (HRR) Regarding Audit Assignment No. 4151-
           2005T10100004 (APO HRR Memorandum No. 9)
           (Project No. D2013-DAPOCF-0004.002)

         This memorandum sets forth the results of our review of Defense Contract Audit Agency
  (DCAA) Assignment No. 4151-2005T10100004, involving an audit of a DoD contractor’s
  claimed incurred costs for 2005. Our review of the audit assignment disclosed that the auditor:

                 •   understated recommended penalties by $54,207;

                 •   did not maintain supporting documentation for the reported penalty
                     participation rate as required by FAR 42.709-2(b)(2); and

                 •   failed to question unallowable bonus costs and related adjustments.

  Background
          As part of our continuous oversight of DCAA, we initiated an effort to periodically select
  and review audit assignments performed in areas we identified as “high risk” (also referred to as
  high-risk reviews). We selected DCAA Assignment No. 4151-2005T10100004 as part of this
  effort.

         Under the assignment, the field audit office (FAO) examined the contractor’s
  January 14, 2008, certified final indirect cost proposal and related books and records for
  reimbursement of 2005 incurred costs. The FAO performed the examination to determine the
  allowability, allocabiltiy, and reasonableness of claimed direct and indirect cost totaling
  $33 million. On October 3, 2012, the FAO issued its audit report, questioning $751,855 of
  claimed indirect costs.

  Objective and Scope of High-Risk Review
         We reviewed the assignment to determine if the FAO:

                 •   correctly applied appropriate criteria, such as the Federal Acquisition
                     Regulation (FAR), Defense Federal Acquisition Regulation Supplement
                     (DFARS), and contract terms;



                                   FOR OFFICIAL USE ONLY




                                                                                                       DODIG-2014-109 │ 57
                 Attachment 9 (cont’d)

                                       •   followed key agency procedures and guidance;

                                       •   gathered sufficient evidence in support of the reported findings and
                                           recommendations; and

                                       •   issued an audit report that adequately described the findings and
                                           recommendations and served a useful purpose to the contracting officer.

                             To accomplish the objective, we obtained a copy of the assignment working paper
                      package, made inquiries to FAO personnel, and reviewed other relevant documents. We did not
                      perform a comprehensive review of the assignment for compliance with all generally accepted
                      government auditing standards.

                      Results of High-Risk Review
                              Our review of Assignment No. 4151-2005T10100004 disclosed the following:

                      Penalty Assessment on Home Office Flow-Down
                             Our review disclosed that the FAO under-stated recommended penalties on questioned
                      home office flow-down cost 1. The FAO received DCAA Report No. 4151– 2005A10100003,
                      which questioned $91,877 in home office flow-down costs that were subject to penalty.
                      However, the schedule of recommended penalties contained in DCAA Report No. 4151-
                      2005T10100004 did not include the $91,877 as subject to penalties, which caused an
                      understatement of $54,207 in recommended penalties based on a Government participation rate
                      of 59 percent ($91,877 x 59 percent = $54,207). The FAO did not comply with the DCAA
                      Contract Audit Manual 6-609(b)(3), requiring that the receiving FAO report home office flow-
                      down costs subject to penalties. The FAO should supplement the report to include the additional
                      $91,877 in questioned cost subject to penalty and $54,207 in recommended penalties.

                      Other Penalty Errors
                              The FAO made the following three additional errors associated with the calculation of
                      penalties:

                                       •   Incorrectly calculated government penalty participation rates;

                                       •   Incorrectly allocated questioned penalty cost within the contractor’s combined
                                           fringe benefit pool; and

                                       •   Failed to assess penalties on questioned cost due to questioned rates within the
                                           contractor’s indirect pools.

                             We discussed these errors in greater detail with the FAO personnel who conducted the
                      audit. We are not requesting that the FAO supplement the report to correct them because, in this

                      1
                       Home office flow-down costs are costs accumulated at the contractor’s corporate or intermediate “home office”
                      and subsequently allocated down to its reporting segments or divisions.


                                                                      2
                                                            FOR OFFICIAL USE ONLY




58 │ DODIG-2014-109
Attachment 9 (cont’d)

  case, the errors did not result in significant differences. However, the FAO should be provided
  with training on the proper calculation and reporting of penalties in the near future.

  Unsupported Penalty Computations
           The working papers did not include any support for how the FAO computed its reported
  penalty participation rates. The FAO attempted to recreate the computations after advising us
  that it was unable to locate the original computation. However, the recreated computation did
  not tie to the reported rate. In accordance with FAR 42.709-2(b)(2), the auditor must maintain
  rationale and supporting documentation in the working paper file for any recommendations
  related to penalties. The FAO should be provided training on maintaining the appropriate level
  of support for its recommended penalty assessments in the working papers.

  Incorrect Bonus Cost Adjustment
          Within the contractor’s FY 2005 incurred cost claim, we noted that the contractor made
  two downward adjustments of $21,500 each to the fringe benefits and on-site overhead bases.
  According to the FAO, the contractor made the adjustments in an attempt to reverse a FY 2004
  error of claiming unallowable bonus costs on Contract No. DRTA01-03-D-0003, Delivery
  Order 12. However, the adjustments actually had the effect of overcharging the Government for
  indirect costs in FY 2005, and failing to reimburse the Government for the unallowable bonus
  costs claimed in FY 2004. The FAO did not question the FY 2005 downward adjustments or the
  FY 2004 claimed unallowable bonus costs. The FAO should supplement Audit Report No.
  4151-2005T10100004 to question the downward adjustments of $21,500 each, and supplement
  Audit Report No. 4151-2004T10100004 to recommend disallowance of the unallowable bonus
  cost. In addition, the FAO should reflect these recommended changes in the FYs 2004 and 2005
  Cumulative Allowable Cost Worksheets.

  Recommendations
        We recommend that the Director, Defense Contract Audit Agency, direct the Western
  Regional Director to:

           1. Advise the contracting officer that the FAO must:

                a. supplement Audit Report No. 4151-2005T10100004 to adjust recommended
                   penalties and other questioned bonus costs; and

                b. supplement prior year Audit Report No. 4151-2004T10100004 to recommend
                   disallowance of unallowable bonus costs on Contract DRTA01-03-D-0003.

           2. In accordance with DCAA Contract Audit Manual 10-214, instruct the FAO to
              supplement:

                a. Audit Report No. 4151-2005T10100004 to: (1) reflect the additional $91,877
                   in questioned cost subject to penalties and $54,196 in additional
                   recommended penalty assessments, (2) question the two $21,500 bonus



                                            3
                                  FOR OFFICIAL USE ONLY




                                                                                                    DODIG-2014-109 │ 59
                 Attachment 9 (cont’d)




60 │ DODIG-2014-109
Attachment 10




                DODIG-2014-109 │ 61
                 Attachment 10 (cont’d)




62 │ DODIG-2014-109
Attachment 10 (cont’d)


  Results of High Risk Review

  Finding A – DCAA audited an inadequate subcontract proposal

         On September 14, 2011, the Bay States Branch Office evaluated the September 1, 2011
       Systems firm-fixed price subcontract proposal to determine if the contractor had submitted
  an adequate proposal in accordance with FAR 15.408 Table 15-2. The proposal was priced at
  $188,309,894 for 42 ship-sets and $163,896,983 for 32 ship-sets.

         On September 19, 2011 the DCAA Bay States Branch Office notified DCAA Ft. Worth
  by memorandum that they were unable to perform an audit of the   Systems subcontract
  proposal due to numerous inadequacies including:

               •   Lack of a consolidated bill of materials to support proposed material costs of
                   $77,866,155 for 42 ship-sets as required by FAR 15.408, Table 15-2 II.

               •   Failure to perform adequate cost and price analysis on 11 subcontract proposals
                   totaling $55,789,960. Each subcontract proposal was in excess of the threshold
                   for submitting cost or pricing data as required by FAR 15.408, Table 15-2.

               •   Lack of cost or price analysis demonstrating that prices proposed for
                   commercially priced items were fair and reasonable in accordance with
                   FAR 15.404-3.

               •   The        Systems pricing model used to derive the 32 ship-set pricing from the
                   42 ship-set baseline used different factors and base amounts than those included
                   in the      Systems certified proposal and resulted in different proposed amounts
                   for both the 42 ship-sets and 32 ship-sets.

           In accordance with DCAA audit policy at DCAM 9-205d 1, the DCAA Bay States Branch
  Office concluded the memorandum by stating that “If the contracting officer or DCAA Ft. Worth
  insists, the Bay States Branch will perform an audit of the subject proposal; however, an adverse
  opinion will be a certainty.”
          DCAM 9-205d states in part that:
                   If the certified cost or pricing data are so deficient that an examination
                   cannot be performed, the auditor should notify the contracting officer of
                   the deficiencies and recommend that the contracting officer return the
                   proposal to the contractor. However, if the contracting officer decides
                   not to return the proposal and maintains the request for audit, the auditor
                   should document the discussion and evaluate the proposal to the extent
                   practical under the circumstances. Because the deficiencies are

  1
   The DCAA Contract Audit Manual (DCAA Manual 7640.1) is an official publication of the Defense Contract
  Audit Agency (DCAA). It prescribes auditing policies and procedures and furnishes guidance in auditing techniques
  for personnel engaged in the performance of the DCAA mission.

                                                  3
                                        FOR OFFICIAL USE ONLY




                                                                                                                      DODIG-2014-109 │ 63
                 Attachment 10 (cont’d)


                                     significant, the report will advise the contracting officer that the proposal
                                     should not be used as a basis for negotiation until specified corrective
                                     actions are completed.
                            On September 26, 2011 DCAA Headquarters coordinated with the DCAA Bay States
                      Branch Office and the Bay States Branch agreed to perform an audit on the inadequate proposal.

                             FAR 15.404-2(d) Deficient proposals provides in part that:

                                     The ACO or the auditor, as appropriate, shall notify the contracting
                                     officer immediately if the data provided for review is so deficient as to
                                     preclude review or audit.

                                                                      And

                                     The contracting officer immediately shall take appropriate action to
                                     obtain the required data.

                              FAR 15.402 – Pricing Policy requires that contracting officers shall purchase supplies
                      and services at fair and reasonable prices. When a contracting officer elects not to ‘take
                      appropriate action to obtain the required data’ identified by the auditor to make a deficient
                      proposal acceptable, it can undercut the effectiveness of the audit services requested. It can also
                      incentivize a contractor to disregard the requirement in FAR 15.408 Table 15-2 to submit all
                      accurate certified cost or pricing data. DCAA audit policy at DCAM 9-205d allowing the
                      auditor perform an audit on an inadequate proposal does not ensure that taxpayer dollars are
                      spent on fair and reasonable prices. In operation it can undermine the FAR requirement that a
                      contractor submit to the U.S. Government an adequate proposal. It also results in the inefficient
                      and ineffective use of limited DoD contract audit resources.

                      Recommendation A
                              By June 30, 2013, the Director, DCAA should evaluate DCAA audit policy, including
                      that specified at DCAM 9-205d, and make the revisions necessary to provide reasonable
                      assurance that:

                                 1. DCAA audit policy does not result in DCAA performing audits on contractor and
                                    subcontractor proposals that DCAA auditors have determined are inadequate for
                                    audit.

                                 2. DCAA audit policy will result in DCAA auditors performing contractor or
                                    subcontractor proposal audits only after the contracting officer has taken
                                    appropriate action and obtained the required data necessary to make the proposal
                                    adequate in accordance with FAR 15.408 Table 15-2.

                                 3. DCAA audit policy provides for DCAA notifying the OIG of an unsatisfactory
                                    condition when a contracting officer has not taken the appropriate action to obtain
                                    the required data in accordance with FAR 15.404-2(d) Deficient proposals.
                                                                 4
                                                       FOR OFFICIAL USE ONLY




64 │ DODIG-2014-109
Attachment 10 (cont’d)




                         DODIG-2014-109 │ 65
                 Attachment 10 (cont’d)




66 │ DODIG-2014-109
Attachment 10 (cont’d)




                         DODIG-2014-109 │ 67
                 Attachment 10 (cont’d)


                             DCAA audit policy at DCAM Appendix D-302c provides that:

                                   “It is the auditor’s responsibility to examine the technical evaluation report to
                                   ensure reasonable understanding of the actual work performed. The auditor’s
                                   working papers must document:

                                      (1) the auditor’s understanding of the actual work performed,

                                      (2) the degree of reliance the auditor placed on the technical evaluation,
                                          including its impact on the results of audit.”

                              After the auditor has examined the technical evaluation report and determined the degree
                      of reliance, DCAAM Appendix D-302c also requires the auditor to “use the work of the
                      specialist(s) unless findings are obviously unrealistic, or procedures used appear inadequate.”
                      DCAAM Appendix D-302c (3) requires the auditor attach the report to the audit report as the
                      final appendix.

                              The DCAA Bay States Branch Office had ample time to incorporate the results of the
                      technical evaluation into Audit Report No. 2701–2012C21000001 but the audit working papers
                      do not demonstrate that DCAA evaluated the results between the time the technical evaluation
                      report was received and the time the DCAA audit report was issued. The audit working papers
                      also do not indicate that a supplemental report including the technical evaluation was issued.

                      Recommendation C
                               1. By June 30, 2013, the Branch Manager, DCAA Bay States Branch Office, should
                                  provide the audit staff with training on the requirements of DCAAM Appendix
                                  D-300 Section 3, Evaluation, Use and Impact of the Results of Government
                                  Technical Specialist Assistance and DCAAM 9-103.8c Technical Evaluations
                                  Impact on Audit Report Schedule.

                               2. By April 30, 2013, the Branch Manager, DCAA Bay States Branch Office, should
                                  implement procedures that provide reasonable assurance that the audit staff has
                                  complied with the audit guidance in DCAM Appendix D Technical Specialist
                                  Assistance and DCAAM 9-103.8c Technical Evaluations Impact on Audit Report
                                  Schedule when performing price proposal audits and issuing price proposal audit
                                  reports.

                               3. The DCAA Regional Audit Manager should perform oversight of the actions taken
                                  by the Branch Manager, Bay States Branch Office to ensure DCAA correctly
                                  implements the audit guidance in DCAM Appendix D-300 Section 3, Evaluation,
                                  Use and Impact of the Results of Government Technical Specialist Assistance and
                                  DCAAM 9-103.8c Technical Evaluations Impact on Audit Report Schedule and
                                  document the results of such oversight on a quarterly basis until corrected.




                                                                 8
                                                       FOR OFFICIAL USE ONLY




68 │ DODIG-2014-109
Attachment 10 (cont’d)




                         DODIG-2014-109 │ 69
                 Attachment 10 (cont’d)



                                                      Chronology of Significant Events
                                        Results of High Risk Review-Forward Pricing (HRR-FP)
                                        Regarding DCAA Audit Report No. 2701–2012C21000001
                                                  (APO HRR-FP Memorandum No. 10)


                      September 29, 2010 – The DoD Joint Strike Fighter Program Office (Program Office) requested
                      audit assistance from the DCAA Ft. Worth Resident Office (DCAA Ft. Worth) in anticipation of
                                                                             Proposal, based on a quantity of 42
                      aircraft.
                      January 13, 2011 – The Program Office amended their request for proposal to reduce the
                      quantity of aircraft from 42 to 32 due to “unforeseen circumstances.”

                      January 18, 2011 – A teleconference was held with Program Office, DCAA Ft. Worth, DCMA,
                      and                    representatives in attendance to discuss the     proposal update. For
                      audits of subcontractor proposals, DCAA Ft. Worth preferred to wait for proposals for the
                      revised quantity of 32 aircraft and then commence audits. The Program Office’s position was to
                      not require revised proposals because that approach would add considerable time to the
                      negotiation schedule.

                      January 19, 2011 – The contracting officer sent an e-mail to the Program Office Director of
                      Contracts discussing the previous day’s teleconference and DCAA’s position. In the e-mail, the
                      contracting officer stated, “While I understand [DCAA’s] concern, I do not believe that the
                      program office, much less the SAEs [JSF Service Acquisition Executives] will support a slip in
                      the negotiation schedule.”

                      January 21, 2011 - The Program Office advised DCAA Ft. Worth on its decision to not require
                                        to obtain revised subcontract proposals to reflect the reduction in aircraft from
                      42 to 32. On that same day DCAA Ft. Worth had advised the Program Office that it was likely
                      that the subcontractors probably would not support DCAA audits of their proposals until the
                      subcontractors had completed updates, and that DCAA would likely be unable to audit the
                      proposed subcontract costs until updates were provided.

                      March 31, 2011 – The Program Office requested DCAA Ft. Worth provide “full scope audit
                      assistance” on the          proposal. The Program Office advised DCAA Ft. Worth that it was
                      “willing and open to discuss realistic, creative solutions to the generation and transmission of
                      audit data to seek the greatest benefit to the Government.”


                      April 25, 2011 – Date of                    $4.5 billion (Prime) fixed price incentive fee/cost
                      plus incentive fee       contract proposal for 32 aircraft
                      April 26, 2011 - DCAA Ft. Worth received the                       $4.5 billion proposal.
                      May 20, 2011 – DCAA Ft. Worth determined the proposal to be adequate for audit. At that time
                      DCAA Ft. Worth working papers demonstrate that                  was awaiting receipt of
                                                                                                      Attachment
                                                                                                       Page 1 of 2
                                                  FOR OFFICIAL USE ONLY




70 │ DODIG-2014-109
Attachment 10 (cont’d)




                         DODIG-2014-109 │ 71
                 Attachment 11




72 │ DODIG-2014-109
Attachment 11 (cont’d)




                         DODIG-2014-109 │ 73
                 Attachment 11 (cont’d)



                      In accordance with FAR 15.404-2(a), the contracting officer requested that DCAA conduct an
                      audit of the       proposal and any supporting data and prepare a report on the contractor’s
                      proposal. The contracting officer specifically identified the following areas for DCAA review 3:

                                   •   “Validity of Section 1.5 Rates/Factors/Disclosures – request verification of, but
                                       not limited to, rates/factors/pricing methodology.
                                   •   Validity of Section 2 Cost Summaries – request verification of
                                       rates/factors/pricing methodology and facilities of cost of money.
                                   •   Validity of Section 3 – Bid Matrix – verification of recorded costs.
                                   •   Validity of Detail Substantiation – Section 5 – Material Volume $319,299,331.
                                   •   Validity of Detail Substantiation – Section 6 – Other Direct Costs $29,382,953
                                       (Note on travel – the number of trips/people will be evaluated by          PM
                                       Technical).
                                   •   Validity of Detail Substantiation – Section 7 IWAs Volume - $179, 062,404.
                                   •   Validity of Recorded Cost (Incurred Cost) – Section 8 (verify the recorded costs
                                       and also verify Appendix A – TINA Disclosures and Appendix I – Material
                                       Back-up).
                                   •   Verification of contractor’s system review (purchasing, estimating, accounting
                                       system etc.) and Disclosure statements.”

                      The PCO excluded proposed direct labor hours from DCAA review. The PCO also requested
                      that DCAA contact her ‘immediately’ should the DCAA audit field work identify any significant
                      proposed costs that were unsupported. The PCO requested DCAA complete the audit by
                      January 11, 2012. DCAA issued the report on February 3, 2012.

                      Results of High-Risk Review

                      Finding A. DCAA Work papers do not document planning and interim
                      discussions with the contracting officer
                      FAR 15.404-2(a)(3) provides that when field pricing assistance is requested, contracting officers
                      are encouraged to team with appropriate field experts throughout the acquisition process. It also
                      provides that:

                                   Early communication with these experts will assist in determining the extent
                                   of assistance required, the specific areas for which assistance is needed, a
                                   realistic review schedule, and the information necessary to perform the
                                   review.

                      On September 9, 2010, DCAA issued memorandum 10-PAS-024(R) 4 subject: Audit Guidance
                      on Auditor Communications. The audit guidance provided in part that:


                      3
                          For some cost elements, the contracting officer identified the specific value of proposed dollars included in the
                                proposal. For other cost elements the contracting officer did not specify specific proposed amounts.


                                                                                   3
                                                               FOR OFFICIAL USE ONLY




74 │ DODIG-2014-109
Attachment 11 (cont’d)



            •    Effective communication with the contracting officer throughout the audit process
                 is an essential part of performing a Generally Accepted Government Auditing
                 Standards (GAGAS) compliant audit while meeting the requestor’s needs.
            •    Auditors must communicate with the contracting officer to gain a clear
                 understanding of the requestor’s needs and specific concerns that he or she may
                 have relative to the audit.
            •    Auditors should keep the contracting officer informed on the status of the audit as
                 well as issues and problems arising during the course of the audit. and
            •    Auditor communications with the contracting officer should be appropriately
                 documented in the working papers.


  The DCAA working papers for audit assignment number 4821–2011R21000012 do not
  demonstrate that the auditors complied with DCAA audit policy and communicated with the
  AMCOM contracting officer to gain a clear understanding of her needs and any specific
  concerns that she had relative to the audit. Nor do they demonstrate that the auditors kept the
  contracting officer informed on the status of the audit as well as issues and problems arising
  during the course of the audit. In fact, the administrative working papers included in section 07,
  Government Notes/Correspondence 5 do not document the results of any discussions and/or
  communications held with the AMCOM contracting officer.

  With regard to working papers, DCAA audit policy at DCAM 4-401 provides in part the
  following:

            The preparation of working papers assists the auditor in accomplishing the
            objectives of an audit assignment and serve as the principle support for the
            conclusions in the audit report. They also provide a record of the work
            performed; record of communications with the contractor and/or
            Government personnel; evidence of adequate supervision; are used as
            supporting data during negotiations, appeals, and litigations; and provide a
            basis for any other quality assurance reviews.

  For audit assignment number 4821–2011R21000012, the DCAA working papers do not provide
  a basis to demonstrate that the auditors (i) communicated with the contracting officer in
  accordance with DCAA audit policy or (ii) teamed with the contracting officer in accordance
  with FAR 15.404-2(a)(3).




  4
    The audit guidance included in 10-PAS-024(R) was subsequently incorporated into the DCAM and the DCAA
  standard audit program for performing price proposal audits.
  5
    DCAM Figure 4-4-2 provides that the contents of administrative work paper section 07 are for “Government Notes
  / Correspondence.”


                                                         4
                                      FOR OFFICIAL USE ONLY




                                                                                                                     DODIG-2014-109 │ 75
                 Attachment 11 (cont’d)




76 │ DODIG-2014-109
Attachment 11 (cont’d)


  Regarding the adequacy of third          proposal dated August 18, 2011, DCAA and the
  contracting officer attended a proposal walk-through provided by         from
  August 30 through September 1, 2011. On October 3, 2011 DCAA advised the PCO by
  memorandum that they had “… completed their adequacy review of the proposal and, at this
  time, consider it adequate.” DCAA commenced its audit thereafter.

  The DCAA work papers documenting the adequacy review of the                August 18, 2011
  proposal do not identify the proposal inadequacies observed by DCAA in the review of the
         March 12, 2010 and November 16, 2010 proposals. The DCAA working papers also do
  not demonstrate that         had corrected the previously identified inadequacies with the
  submission of their August 18, 2011 proposal.

  On December 20, 2011, DCAA issued a memorandum to the PCO notifying her that the
  deficiencies in cost or pricing data submitted by        and identified by DCAA in their on-
  going audit of the          August 18, 2011 proposal were significant. DCAA advised the
  contracting officer that the final DCAA report would render an adverse opinion and state that the
  proposal was not an acceptable basis for negotiation of a fair and reasonable price. Deficiencies
  identified by DCAA in the memorandum included:

           •   Proposed material costs of $147,707,896 were unsupported for various reasons
               including inadequate subcontractor cost or pricing data submissions, inadequate and
               incomplete cost price analyses on subcontractors, and lack of supporting
               documentation.
           •   Proposed recurring labor hours (486,352) were unsupported due to the use by
                       of unauditable historical cost or pricing data.

  According to the contracting officer, DCAA advised her prior to the audit exit conference held
  on January 30, 2012 that the           proposal was inadequate. The contracting officer stated she
  would not have required a DCAA audit of an inadequate proposal if she had been advised at the
  start of the audit that it was inadequate. According to the contracting officer, DCAA advised her
  that the proposal was “adequate for field work” but not “adequate as a proposal.”

  On February 3, 2012 DCAA issued Audit Report No. 4821–2011R21000012. DCAA reported
  that the cost or pricing data submitted by       in support of proposed direct labor, direct
  material, Interdivisional Work Authorizations (IWA), Other Direct Costs (ODC), indirect costs
  for Calendar Years (CYs) 2008 through 2010, and recorded direct costs was not adequate.
  DCAA reported that because these inadequacies were significant, DCAA did not believe the
  proposal was an acceptable basis for negotiation of a fair and reasonable price. DCAA reported
  that to make the cost or pricing data adequate,        must provide adequate cost or pricing data
  support, perform adequate cost price analyses, provide adequate documentation to support basis
  of estimates, and demonstrate continuing reasonableness of the proposed costs.

  The following table depicts the proposed direct labor, direct material, Interdivisional Work
  Authorizations (IWA), Other Direct Costs (ODC), indirect costs for Calendar Years (CYs) 2008
  through 2010, and recorded direct costs included in the         August 18, 2012 proposal that


                                                  6
                                  FOR OFFICIAL USE ONLY




                                                                                                       DODIG-2014-109 │ 77
                 Attachment 11 (cont’d)


                      DCAA reported as not adequate and not acceptable as basis for negotiation of a fair and
                      reasonable price:

                                Direct Labor                                                   $164,520,807
                                Direct Material                                                 212,666,200
                                DH-MD Interdivisional Work Authorization                         27,856,443
                                Material
                                Other Direct Costs                                               29,353,302
                                IWA Costs                                                        90,082,699
                                Recorded Indirect Costs, 2008 - 2010                             15,662,605
                                 Total Cost                                                    $540,142,056


                      With so much proposed costs found inadequate by DCAA, the contracting officer advised the
                      OIG that she was left in a position where she could not negotiate a contract under AMCOM
                      guidelines.

                      After receipt of the DCAA audit report, the contracting officer convened the ‘LRIP Proposal
                      DCAA Audit Walkthrough and Technical Fact Finding Summit’ at the                 facility from
                      February 6 through 24, 2012 (see Finding E). The contracting officer advised the OIG that the
                      purpose of the ‘summit’ was to sit with DCAA to reconcile the gaps in the audit findings and the
                      request for audit and to make the audit report useable for negotiating the contract. One factor
                      leading to the need to convene the summit was DCAA reporting that              had not submitted
                      adequate cost or pricing to support a majority of their proposed cost.

                      Recommendation B
                      The Director, DCAA should evaluate DCAA audit policy for performing adequacy reviews of
                      contractor proposals and make the revisions necessary to provide reasonable assurance that:

                         1. For any proposals that have been resubmitted due to a previous DCAA finding of
                            inadequacy, the DCAA auditor evaluates the resubmitted proposal and determines that
                            the proposal has been corrected for each previously identified deficiency.

                         2. The actions taken by the auditor to attest that previously identified deficiencies have been
                            corrected by the contractor are appropriately documented in the working papers.

                         3. Where the auditor identifies in the evaluation of the current proposal that a previously
                            identified deficiency has resulted in the contractor submitting inadequate cost or pricing
                            data to support proposed cost, the auditor will issue a report to the administrative
                            contracting officer identifying the business system deficiency, as appropriate.




                                                                      7
                                                     FOR OFFICIAL USE ONLY




78 │ DODIG-2014-109
Attachment 11 (cont’d)


  Finding C. DCAA was untimely in notifying the contracting officer that they
  were not auditing the proposed indirect rates
  The September 1, 2011 contracting officer request for DCAA audit of       Proposal
  No. 5030-0052.6, dated August 18, 2011 included the following areas for DCAA review:

           Validity of Section 1.5 Rates/Factors/Disclosures – request verification of,
           but not limited to, rates/factors/pricing methodology.
           And
           Validity of Section 2 Cost Summaries – request verification of
           rates/factors/pricing methodology and facilities cost of money.

  FAR 15.404-2(a) provides that the contracting officer shall tailor requests for field pricing
  assistance to “…reflect the minimum essential supplementary information needed to conduct a
  technical or cost or pricing analysis.”

           Proposal No. 5030-0052.6, dated August 18, 2011 for                           Low Rate
  Initial Production (LRIP) Definitization Proposal included the following proposed indirect costs
  that were contingent upon a review of the corresponding proposed rates:

            Overhead                                                          $74,857,185
            General & Administrative                                           63,592,806
            Facilities Capital Cost of Money                                    2,201,648
                                                                             $140,651,639

  As described in Finding A, the DCAA work papers do not provide a record of any
  communications held with the contracting officer before beginning the audit to gain a clear
  understanding of the contracting officer’s needs, to identify specific areas of concerns, and to
  discuss how DCAA can best meet those needs and address the requestor’s concerns while
  complying with GAGAS.

  FAR 15.404-2(c) Audit assistance for prime contracts or subcontracts provides at paragraph (3)
  that the auditor is responsible for the scope and depth of the audit. The DCAA work papers
  demonstrate that DCAA determined during audit planning and risk assessment that they would
  not audit the          proposed indirect rates:

           •   Audit work paper B-01, entitled “AUDIT PLANNING CONSIDERATIONS AND
               PRELIMINARY AUDIT STEPS” and initialed and dated by the audit staff on
               September 14, September 27 and October 3, 2011, provided that DCAA would not
               perform any review procedures to audit the proposed indirect rates.

           •   Audit work paper N-01, entitled “INDIRECT RATES – NO AUDITED RATES…”
               and initialed and dated by the audit staff on September 7, 2011, provided that
               DCAA would not perform any review procedures to audit proposed indirect rates
               and included the following note on the work paper:

                                                   8
                                  FOR OFFICIAL USE ONLY




                                                                                                     DODIG-2014-109 │ 79
                 Attachment 11 (cont’d)


                                     “We will disclaim an opinion on Indirect Rates from 2011 forward. We
                                     do not have audited Indirect Rates and do not expect to have audited
                                     Indirect Rates prior to the issuance of our audit report.”

                      On October 3, 2011 DCAA issued a memorandum to the contracting officer in response to her
                      September 1, 2011 request for audit. DCAA advised the contracting officer as follows regarding
                      her request that DCAA review rates:

                                     “At this time, we will not be evaluating indirect rates or pricing factors;
                                     however, we will evaluate these areas if a DCAA audit on these areas has
                                     been issued prior to the issuance of the audit report on this proposal.”

                      Subsequent to the October 3, 2011 memorandum, DCAA did not perform any audit work to
                      review the         proposed indirect rates: In audit work paper N-02 initialed and dated by the
                      audit staff on December 20, 2011and entitled “Audit of                    LRIP Proposal Under
                      Contract                      ”, DCAA documented the audit of indirect rates as follows:

                                 •    DCAA did not have an audit position on the indirect rates.
                                 •    DCAA                   had not issued an audit report on the               proposed
                                      indirect rates since 2008.
                                 •    Since 2008, DCAA had not issued an audit report on seventeen (17)
                                      forward pricing rate proposals.
                                 •    DCAA                   had been unable to complete the audit of a          forward
                                      pricing rate proposal before          had issued the next FPRP. The work paper
                                      explains that this is partly due to waiting for DCAA audits of significant
                                      flow down cost from other DCAA locations and because              is in the habit of
                                      submitting a new FPRP at least 6 times a year.
                                 •    The work paper provided that DCAA                     would follow the Guidance in
                                      DCAA Audit Alert 10-PSP-018(R), dated June 4, 2010 7 and that DCAA would
                                      disclaim an opinion on indirect rates. The work paper provided that “The proposed
                                      indirect rates have not/are not being audited.”

                      On December 20, 2011, DCAA issued a memorandum notifying the contracting officer of
                      various issues encountered in the audit. Regarding indirect rates, DCAA notified the contracting
                      officer that it had not examined the proposed indirect rates and, as a result, would disclaim an
                      opinion on the proposed indirect costs in its upcoming audit report. Additionally, DCAA
                      advised the contracting officer that:

                                     “We believe that consideration of audited indirect expense rates … is a
                                     significant matter for this procurement. We recommend final negotiations


                      7
                        The DCAA audit alert clarified DCAA audit policy on the reporting on forward pricing rates included in pricing
                      proposals when the audit of rates has not been completed at the time of report issuance. In summary, the audit alert
                      provided that since direct and/or indirect rates usually represent such a significant portion of a pricing proposal,
                      auditors should disclaim an opinion on the proposal taken as a whole if the audit of those rates has not been
                      completed.


                                                                                9
                                                            FOR OFFICIAL USE ONLY




80 │ DODIG-2014-109
Attachment 11 (cont’d)


               not be completed until audits of the proposed indirect expense rates … are
               completed.

  On February 3, 2012, DCAA issued Audit Report No. 4821–2011R21000012. DCAA reported
  that the scope of audit was not sufficient to enable DCAA to express an opinion on whether the
  proposed indirect expense rates for Calendar Years (CYs) 2011 and beyond were in all respects
  based on FAR, DFARS, and CAS, and acceptable as a basis for negotiating a fair and reasonable
  price. DCAA reported that this was because they had not completed an examination of those
  portions of the forward pricing rate packages used in this proposal or any subsequent forward
  pricing rate submissions. DCAA recommended that final contract negotiations not be completed
  until DCAA could finish their audit and determine whether such proposed costs were in all
  respects based on the procurement regulations and acceptable for negotiation of a fair and
  reasonable price. The DCAA report did not provide a completion date for this work.

  After receipt of the DCAA audit report, the contracting officer convened the ‘LRIP Proposal
  DCAA Audit Walkthrough and Technical Fact Finding Summit’ at the                       facility on
  February 6 through 24, 2012 (see Finding E). The contracting officer advised the OIG that the
  purpose of the ‘summit’ was to sit with DCAA to reconcile the gaps in the audit findings and the
  request for audit and to make the audit report useable for negotiating the contract. The
  contracting officer identified the omission by DCAA of the review of proposed indirect rates as
  one of the reasons for convening the fact-finding summit.

  Subsequent to the DCAA audit report, the contracting officer obtained the Defense Contract
  Management Agency (DCMA) Forward Pricing Rate Recommendation (FPRR) 8 dated
  March 16, 2012. The DCMA FPRR was established without DCAA audit support and was used
  by the contracting officer to establish the U.S. Government negotiation position for indirect
  costs, rates and factors.

  DCAA audit policy at DCAM 9-103.1a provides the following:

             In responding to requests for audit services, FAO managers, supervisors,
             and auditors should keep in mind that the PCO and ACO are the primary
             users of our services. Our aim is to provide timely and responsive audits,
             audit reports and financial advisory services that meet the user’s needs. This
             goal can be achieved by establishing open and effective channels of
             communication that allow for the sharing of information and ideas as the
             audit progresses. FAR 15.404-2(a)(3) encourages PCOs to team with
             appropriate field experts and to communicate early in the acquisition
             process.




  8
    By Memorandum dated September 14, 2010, the Under Secretary of Defense (Acquisition, Technology and
  Logistics) established DoD policy allowing the use of DCMA FPRR’s to ‘ensure contracting officer’s obtain the
  support they need to negotiate rates’ and ‘where there is not a legitimate and thoughtful basis for departing from
  them.’


                                                            10
                                         FOR OFFICIAL USE ONLY




                                                                                                                       DODIG-2014-109 │ 81
                 Attachment 11 (cont’d)


                      The DCAA work papers do not demonstrate that DCAA                     met the DCAA aim and
                      goal as established at DCAM 9-103.1a and established an open and effective channel of
                      communication with the contracting officer in responding to the request to review rates.

                      Recommendation C
                         1. The Director, DCAA should evaluate DCAA audit policy for auditing contractor
                            proposed indirect rates and make the revisions necessary to provide reasonable assurance
                            that:

                                a. DCAA audit policy results in DCAA auditors advising contracting officers when
                                   acknowledging any requests for price proposal audit assistance that DCMA
                                   forward pricing rate recommendations are available for contracting officer use in
                                   lieu of DCAA audited rates at those contractor locations where DCAA cannot
                                   provide a rate recommendation in a timely manner.

                                b. DCAA audit policy included in DCAA Audit Alert 10-PSP-018(R), dated June
                                   4, 2010 has not unduly restricted DCAA capability to provide audit
                                   recommendations on contractor forward pricing rate proposals while complying
                                   with GAGAS.

                                c. DCAA audit policy for performing rate proposal audits at large, multi-segmented
                                   contractors like the                  is providing field auditors with the right mix
                                   of audit procedures and techniques to assist DoD contracting officers in
                                   negotiating fair and reasonable contract prices while complying with Government
                                   Auditing Standards.

                         2. The Resident Auditor, DCAA                  Resident Office should implement
                            procedures that provide reasonable assurance that the auditors will advise contracting
                            officers requesting audit assistance from DCAA                 that:

                                a. Forward pricing rate recommendations are available from the DCMA Divisional
                                   Administrative Contracting Officer.

                                b. The current status of any forward pricing rate audits and a conservative estimate
                                   on the likelihood that DCAA will complete the audit and issue an audit report in
                                   time for use by the contracting officer in negotiating the pricing action under
                                   consideration.

                         3. Plan and begin implementing actions that will allow DCAA                   to provide
                            timely accounting and advisory services to the DCMA administrative contracting officer
                            in connection with the review of the contractor’s forward pricing rate proposal(s) and
                            establishment of forward pricing rate agreements at               .




                                                                    11
                                                     FOR OFFICIAL USE ONLY




82 │ DODIG-2014-109
Attachment 11 (cont’d)


  Finding D. DCAA did not establish and maintain effective communications
  with the contracting officer in the audit of proposed labor hours
  The contracting officer did not request that DCAA review proposed labor hours in her
  September 1, 2011 request for audit of           Proposal No.              , dated
  August 18, 2011. FAR 15.404-2(a) provides that the contracting officer shall tailor requests for
  field pricing assistance to “…reflect the minimum essential supplementary information needed to
  conduct a technical or cost or pricing analysis.” The contracting officer had technical expertise
  available and on September 2, 2011 the contracting officer requested a technical evaluation of
  proposed labor hours from the Army             Program Manager’s Office. The contracting officer
  advised the OIG that DCAA audited the proposed labor hours even though the contracting
  officer requested from the outset that they not.

  FAR 15.404-2(c) Audit assistance for prime contracts or subcontracts provides at paragraph (3)
  that the auditor is responsible for the scope and depth of the audit. DCAA audit policy at
  DCAM 9-103.1a states that the aim of DCAA is to provide timely and responsive audits and
  audit reports that meet the user’s needs. It provides that this goal can be achieved by establishing
  open and effective channels of communication that allow for the sharing of information and
  ideas as the audit progresses.

  DCAA audit policy at DCAM 4-104a provides that if the auditor is aware of risk factors that
  indicate additional parts of a proposal should be audited, the auditor should discuss those risks
  with the contracting officer. Additionally, DCAM 9-103.1d(4) states in part that “the auditor
  should coordinate with the requestor, upon completion of the risk assessment, to resolve any
  inconsistencies between the requested audit effort and the scope of audit determined by the
  auditor’s assessed level of risk”.

  The DCAA work papers do not document that DCAA discussed with the contracting officer any
  additional risk factors associated with the proposed direct labor hours and why these risk factors
  necessitated additional audit scope and depth 9. The closest the work papers come to
  documenting such a discussion is working paper B-01, section B-1, step 3.c, where the auditors
  annotated after an audit step that “AMCOM did not request it; however, we will be performing
  the labor section. AMCOM did not object.”

  DCAA expended 1,408 hours auditing proposed labor hours. In the Exhibit to Audit Report No.
  4821-2011R21000012, DCAA reported that it questioned 604,144 proposed labor hours and
  unsupported 391,986 proposed labor hours. DCAA findings included the following:

             •   DCAA questioned the reasonableness of 264,103 Non-Recurring direct labor hours
                 through the evaluation of data derived from the   Estimate at Completion and
                 Earned Value Management System.



  9
    DCAM 9-103.1d(4) states in part that “the auditor should coordinate with the requestor, upon completion of the
  risk assessment, to resolve any inconsistencies between the requested audit effort and the scope of audit determined
  by the auditor’s assessed level of risk”.


                                                           12
                                        FOR OFFICIAL USE ONLY




                                                                                                                         DODIG-2014-109 │ 83
                 Attachment 11 (cont’d)


                               •   DCAA unsupported 175,403 Touch Labor hours after determining that the
                                   historical cost data used by        in a proposed improvement curve was not
                                   auditable as it had been derived from a database that had not been maintained since
                                   its creation and the systems used to pull the source data were unknown.

                      In both cases DCAA determined in October, 2011that the              labor hour estimates could not
                      be relied upon to negotiate a fair and reasonable contract price for labor hours. In each case
                      DCAA performed alternative audit procedures to arrive at the DCAA audit position included in
                      Audit Report No. 4821-2011R21000012. DCAA audit policy at DCAM 9-103.1a provides that
                      DCAA can meet its goal to provide timely and responsive audit reports that meet the contracting
                      officer’s needs by establishing open channels of communication with the contracting officer that
                      allow for the sharing of information and ideas as the audit progresses. In neither case do the
                      DCAA work papers demonstrate that DCAA advised and shared with the contracting officer
                      their finding that         had unsupported labor hour estimates even though the contracting
                      officer had specifically requested that DCAA share such information “immediately”.

                      Additionally, DCAA unilaterally evaluated the learning and efficiency curves used by the
                      contractor to support the reasonableness of proposed touch labor hours. Based upon the
                      evaluation, DCAA questioned 114,217 direct labor hours in their February 3, 2012 audit report.

                      After receipt of the DCAA audit report, the contracting officer convened the ‘LRIP Proposal
                      DCAA Audit Walkthrough and Technical Fact Finding Summit’ at the                 facility from
                      February 6 through 24, 2012 (see Finding E). The Apache Block III technical team and DCAA
                      laid out their positions at the Summit and in the labor category it was determined that a
                      combination of the AMCOM and DCAA efforts would be utilized to establish a negotiation
                      position. The contracting officer advised the OIG that AMCOM utilized the DCAA system for
                      evaluating contractor actual labor hour historical data but did not use the DCAA learning curve
                      technique.

                      Recommendation D
                      The Resident Auditor, DCAA                   Resident Office, should implement procedures that
                      provide reasonable assurance that the audit staff complies with the requirements of DCAM 9-
                      103.1a and establish open channels of communication with the contracting officer that allow for
                      the sharing of information and ideas as the audit progresses.

                      Finding E. The DCAA audit report did not meet the needs of the Contracting
                      Officer

                      DCAA Audit Report No. 4821–2011R21000012 dated February 3, 2012 did not meet the needs
                      of the contracting officer. DCAA audit policy at DCAM 9-103.1 Coordination of the Request –
                      Field Pricing Support, provides in part that:

                               Our aim is to provide timely and responsive audits, audit reports and
                               financial advisory services that meet the user’s needs.



                                                                      13
                                                      FOR OFFICIAL USE ONLY




84 │ DODIG-2014-109
Attachment 11 (cont’d)


  Additionally, DCAA audit guidance at DCAM 10-302 provides in part that:

           The audit report should contain the necessary and pertinent information
           disclosed by the audit, which will assist the contracting officer in
           negotiating with the contractor. [DCAM 10-302a]

           And

           The auditor should coordinate with the customer while planning the audit.
           Reports should comment on areas emphasized in the request.
           [DCAM 10-302b]

  After receipt of the DCAA audit report, the contracting officer had to convene a conference
  called the ‘LRIP Proposal DCAA Audit Walkthrough and Technical Fact Finding Summit’ at the
  DCAA office at the           facility from February 6 through 24, 2012. The contracting officer
  advised the OIG that the purpose of the ‘summit’ was to sit with DCAA to reconcile the gaps in
  the audit findings and the request for audit and to make the audit report useable for negotiating
  the contract. Under AMCOM guidelines the contracting officer could not negotiate a contract
  using the DCAA audit report. The contracting officer identified the following problems with the
  services provided by DCAA and the DCAA audit report:

           •   The DCAA report did not address all the items the contracting officer had requested
               DCAA review in her request for audit, including a review of the proposed indirect
               rates (see Finding C).
           •   DCAA only audited ‘roughly 50 percent’ of the proposal and found that the part
               audited was not acceptable for negotiating a fair and reasonable price.
           •   DCAA provided conflicting advice on the adequacy of the proposal
               (see Finding B).
           •   Untimely notice by DCAA to the contracting officer that             did not have
               auditable support for the historical labor hours used to support its learning curve
               used as a basis of estimate for proposed labor hours. Timely notice could have
               avoided significant rework by the AMCOM team of 20 engineers who were
               generating the Government’s technical position for the same effort (see Finding D).
           •   The DCAA reported findings on proposed material cost did not reconcile to the
               contractor's proposal. It took intervention by AMCOM senior management to get
               DCAA to provide the DCAA working papers documenting the audit of material
               costs. This was not accomplished until the last week of the fact-finding summit.
               Even with the material audit working papers it took the contracting officer four
               weeks to reconcile the DCAA findings to the contractor's proposal.

  The contracting officer advised the OIG that as a result of DCAA Audit Report No. 4821–
  2011R21000012, the Army Contracting Command – Redstone has made the use of post-audit
  report ‘summits’ a required practice for all DCAA audit reports received on proposals exceeding
  $500 million.




                                                 14
                                 FOR OFFICIAL USE ONLY




                                                                                                      DODIG-2014-109 │ 85
                 Attachment 11 (cont’d)


                      Recommendation E

                      The Director, DCAA should take action to ensure that any DCAA price proposal audit reports
                      issued in response to a request for audit originating from the Army Contracting Command –
                      Redstone meet the needs of the contracting officer and can be used by the contracting officer to
                      negotiate a contract without the contracting officer having to resort to the the use of post-audit
                      report walkthroughs and technical fact-finding summits.

                      Finding F. DCAA overstated dollars examined, questioned costs, and net
                      savings reported in the DCAA Management Information System
                      Appendix A to the DCAA Management Information System (Appendix A) provides guidelines
                      for auditor use in calculating the monetary benefits resulting from DCAA audits. The amounts
                      calculated using Appendix A are reported in the DCAA Management Information System
                      (DMIS). The Overview to DMIS Appendix A states as follows:

                                  The accuracy of data contained in DMIS is important to both internal and
                                  external customers. Internally, DMIS is used to provide DCAA managers
                                  with data to make informed decisions and to measure the success of audit
                                  activities. Data such as net savings are also reported outside the Agency to
                                  publicize our contribution to the acquisition process.

                      The monetary benefits generated by DCAA Audit Report No. 4821–2011R21000012 were first
                      reported in the DCAA DMIS system on March 31, 2012. DCAA subsequently revised the
                      amounts input to DMIS on Sept. 30, 2012, Dec. 10, 2012 and Jan. 17, 2013. The latter two
                      revisions were made subsequent to the OIG making inquiries regarding the amounts reported in
                      DMIS. The monetary benefits reported by the DCAA in DMIS for DCAA Audit Report No.
                      4821–2011R21000012 included significant errors and are overstated.

                      The following chart depicts dollars examined, questioned cost, and net savings reported in DMIS
                      for DCAA Audit Report No. 4821–2011R21000012:

                                                            Mar. 31, 2012      Sept. 30, 2012      Dec. 10, 2012       Jan. 17, 2013
                           Dollars Examined (000)                 $362,623           $632,928           $721,447             $721,447

                           Questioned Cost (000)                    $77,815          $116,556           $113,459              $62,125

                           Net Savings (000)                              $0                 $0           $57,883             $18,853

                      Reported Dollars Examined. After revising the amount reported in DMIS two times, DCAA
                      reported dollars examined 10 of $721.5 million in DMIS. However, DCAA overstated dollars
                      examined by including contractor proposed profit of $132.9 million and contractor proposed

                      10
                        Dollars examined is an attempt to capture the amount of proposed cost included in the contractor’s proposal that
                      DCAA audited. However, Appendix A to the DMIS manual does not provide a definition of the term ‘dollars
                      examined’.


                                                                               15
                                                            FOR OFFICIAL USE ONLY




86 │ DODIG-2014-109
Attachment 11 (cont’d)


  indirect costs of $145.7 million in the $721.5 million reported in DMIS. But for the
  overstatements, reported dollars examined should be $485.6 million as of January 17, 2013.
  DCAA did not audit profit or proposed indirect costs or report audit results for profit or indirect
  costs in DCAA Audit Report No. 4821–2011R21000012.

  Regarding contractor proposed profit, DMIS Appendix A provides in Section V – Forward
  Pricing that dollars examined will be based on the contractor’s total proposal amount, including
  profit. However, DCAA audit policy at DCAM 9-906.6 states that:

           The auditor will not initiate action in the profit area except upon specific
           contracting officer request. In this event, the auditor's effort will be limited
           to furnishing the information or factual data requested.

  The contracting officer in her September 1, 2011 request for DCAA audit services did not
  request DCAA audit assistance with the review of profit or request that DCAA furnish any
  specific information or factual data related to proposed profit.

  On February 1, 2013, the OIG requested that DCAA Headquarters provide rationale for the
  DCAA DMIS policy to claim profit as a part of the dollars examined where DCAA did not audit
  profit and did not assist the contracting officer in the profit area. On February 20, 2013 DCAA
  Headquarters responded in part that:

           “Profit has been part of dollars examined for proposal audits as far back as
           1979 which is the oldest information we can find. We have concluded that
           profit was included in dollars examined because (1) audit reports on price
           proposals display profit as part of the proposed amount, and (2) we examine
           the base dollars for which the profit amounts are dependent and the amount
           of profit negotiated will be affected by the base cost to which the profit
           percentage is applied.”

  In performing the audit of         Proposal No.               dated August 18, 2011, DCAA
  was not requested to review profit; DCAA did not review profit; and, DCAA did not provide the
  contracting officer with an audit opinion regarding the reasonableness of proposed profit.
  Additionally, DCAA audit policy at DCAM 9-906.6 provides that the auditor will not initiate an
  audit of profit. By including $132.9 million in proposed profit in the dollars examined reported
  in DMIS, DCAA is taking monetary credit for examining an element of the contractor’s
  proposal, profit, which they did not audit.

  Regarding contractor proposed indirect costs, Finding C above established that the contracting
  officer requested that DCAA review rates/factors/pricing methodology/and facilities cost of
  money but that DCAA elected not perform the requested audit and did not provide an opinion on
  the proposed indirect costs for Calendar Years (CYs) 2011 and beyond. Finding C also
  established that the contracting officer subsequent to the DCAA audit report obtained a forward
  pricing rate recommendation (FPRR) from another DoD agency, the Defense Contract
  Management Agency (DCMA) and used those rates to establish her negotiation position for



                                                   16
                                   FOR OFFICIAL USE ONLY




                                                                                                        DODIG-2014-109 │ 87
                 Attachment 11 (cont’d)


                      indirect costs. Finding B also established that DCMA established the FPRR without the
                      assistance of DCAA.

                      On February 1, 2013, the OIG requested that DCAA Headquarters provide rationale for the
                      DCAA DMIS policy to claim indirect costs as a part of the dollars examined, questioned cost
                      and net savings where DCAA did not provide an opinion on proposed indirect costs and another
                      DoD agency provided the contracting officer with the field pricing assistance on rates. On
                      February 20, 2013 DCAA responded in part that:

                               “DCAA reports dollars related to the parts of the proposal audited plus
                               associated indirect expense because if the base cost is negotiated at a lower
                               price than that proposed by the contractor, then indirect expenses negotiated
                               will change in direct proportion. The changes in the negotiated contract
                               values of the direct base cost and the indirect expenses are a direct result of
                               the audit services provided by DCAA. Once negotiations have been held
                               and a PNM is issued, DCAA FAO staff evaluates the PNM to determine the
                               amounts sustained attributable to the services provided by DCAA and
                               record the amounts in DMIS. The amounts are reported in DMIS and serve
                               as a way for DCAA to measure the value of those audit services and the
                               benefits received. In the case of audits of parts of a proposal, the value of
                               audit services will extend beyond the amounts shown in the audit report.”

                      In performing the audit of the         proposal, DCAA was requested to review
                      rates/factors/pricing methodology/and facilities cost of money. DCAA elected not to perform
                      the service and did not provide the contracting officer with an audit opinion regarding the
                      reasonableness of proposed indirect rates. In fact, another DoD agency, DCMA, was responsive
                      to the contracting officer’s needs and provided field pricing support for rates without the
                      assistance of DCAA. By including $145.7 million in proposed indirect costs in the dollars
                      examined in DMIS, DCAA is taking monetary credit for examining contractor proposed cost that
                      they did not audit. They are also taking monetary credit for the review of an element of the
                      contractor’s proposal that another DoD agency elected to review and provide assistance to the
                      AMCOM contracting officer.

                      Reported Questioned Cost. DCAA reported questioned cost of $62.1 million in DMIS on
                      January 17, 2013. This amount was the result of three revisions made to DMIS by DCAA to
                      correct for errors and overstatements. The errors and overstatements totaled $93.2 million and
                      are comprised of:

                               •   $38.7 million in questioned indirect costs that DCAA did not audit and for which
                                   DCMA provided the contracting officer with field pricing support,
                               •   $3.1 million in questioned cost claimed by DCAA                 but attributable to
                                   work performed by another DCAA field audit office under an assist audit report,
                                   and
                               •   $51.4 million in findings originating from a DCMA technical review but for which
                                   DCAA reported the questioned cost in DMIS.




                                                                     17
                                                     FOR OFFICIAL USE ONLY




88 │ DODIG-2014-109
Attachment 11 (cont’d)


  But for these errors and overstatements, reported questioned cost in DMIS would be
  $45.9 million as of January 17, 2013.

  On September 30, 2012, DCAA increased the amount of questioned cost originally reported in
  DMIS from $77.8 million to $116.6 million, an increase of $38.7 million. On inquiry, DCAA
  advised the OIG that the increase of $38.7 million was for the addition of questioned indirect
  costs. Thereafter, the amounts reported as questioned cost in DMIS for DCAA Audit Report No.
  4821–2011R21000012 include applicable proposed indirect costs.

  DMIS Appendix A provides in Section V – Forward Pricing that the amount that is reported is
  the questioned cost for all proposed cost elements plus applicable indirect costs 11.

  Along with reported dollars examined, we requested that DCAA Headquarters provide rationale
  for the DCAA DMIS policy to claim indirect costs as a part of the questioned cost reported
  where DCAA did not provide an opinion on proposed indirect costs and another DoD agency
  provided the contracting officer with the field pricing assistance on rates. The DCAA
  Headquarters response is provided above in the discussion on reported dollars examined. For the
  same reasons identified above for reported dollars examined, DCAA should not claim any
  monetary benefits for questioned proposed indirect cost where DCAA did not audit the proposed
  indirect rates and another DoD agency provided the field pricing assistance.

  On December 10, 2012 DCAA revised the reported questioned cost of $116.6 million downward
  by $3.1 million to $113.5 million. The reduction was made to reduce the questioned cost
  claimed by DCAA                   for an assist audit report performed by another DCAA office
  and reportable by that office in DMIS.

  DCAA guidance provided in DMIS Appendix A Section V – Forward Pricing states in part that:

            Amounts questioned in subcontract/interdivisional assist audit reports will
            be reported by the field audit office performing the assist audit; accordingly,
            these amounts should not be reported by the recipient field audit office.

  On January 17, 2013, DCAA revised the reported questioned cost of $113.5 million downward
  by $51.4 million to $62.1 million. The reduction was made to reduce the reported questioned
  cost in DMIS for work performed by DCMA, another DoD agency, in a technical review. On
  December 10, 2012 the OIG requested that DCAA explain why the questioned cost of $113.5
  million reported in DMIS on December 10, 2012 had not been reduced for the technical report
  received from DCMA. In DCAA Audit Report No. 4821–2011R21000012, DCAA had
  incorporated the results of the DCMA December 21, 2011 technical review into the reported
  audit findings.




  11
     Unlike the DCAA Appendix A guidance for reporting dollars examined, DMIS Appendix A does not provide that
  profit be added to questioned cost.


                                                       18
                                     FOR OFFICIAL USE ONLY




                                                                                                                 DODIG-2014-109 │ 89
                 Attachment 11 (cont’d)


                      DMIS Appendix A, Section V – Forward Pricing states in part that:

                               When the results of the technical review are incorporated into the DCAA
                               audit report the resulting questioned costs based on the technical review will
                               not be incorporated in the DMIS.

                      Reported Net Savings. On Dec. 10, 2012 DCAA reported net savings of $57.9 million resulting
                      from DCAA Audit Report No. 4821–2011R21000012. After inquiry by the OIG, DCAA revised
                      this amount to $18.9 million on January 17, 2013. However, the $18.9 million was not
                      calculated in accordance with DMIS Appendix A, Section V – Forward Pricing and may not
                      accurately report net savings, if any, that may have resulted from DCAA Audit Report No.
                      4821–2011R21000012.

                      The contracting officer provided the price negotiation memorandum (PNM) to DCAA on
                      August 1, 2012. DMIS Appendix A provides that “upon receipt of the PNM from the
                      procurement activity, amounts sustained and the resulting net savings should be promptly
                      computed and reported in DMIS.” In response to the OIG, DCAA responded on
                      November 21, 2012 that the calculated net savings was undergoing managerial review.
                      Subsequently, DCAA reported net savings of $57.9 million in DMIS on Dec. 10, 2012.

                      Regarding reported questioned cost sustained and net savings, DMIS Appendix A, Section V –
                      Forward Pricing provides in part that:

                               •   The contracting officer’s price negotiation memorandum “…should be carefully
                                   reviewed and compared to the audit report to determine the extent of audit
                                   exceptions sustained”
                               •   If the PNM “…is unclear on any significant audit exceptions or issues, the
                                   negotiator should be contacted for clarification”, and
                               •   Amounts reported as sustained in the DMIS will exclude amounts attributable to
                                   assist audits and technical reviews.”

                      On December 10, 2012 the OIG requested that DCAA explain (i) why the questioned cost
                      amount reported in DMIS was not reduced for the technical reports, (ii) why a revised
                      proposal that was not audited by DCAA was used as the basis for calculating net savings, and
                      (iii) how the net savings amount was adjusted for items that were potentially reduced in
                      negotiations for reasons other than the DCAA audit report.

                      In their response dated December 18, 2012, DCAA:

                               •   Agreed that the portion of question costs applicable to the DCMA technical
                                   evaluation should be removed,
                               •   Agreed that the calculation of net savings should be based on the original audited
                                   proposal, and
                               •   Agreed to revise their DMIS calculations and update DMIS accordingly to show
                                   how the net saving amount was adjusted for items that were potentially reduced in
                                   negotiations for reasons other than the DCAA audit.


                                                                     19
                                                     FOR OFFICIAL USE ONLY




90 │ DODIG-2014-109
Attachment 11 (cont’d)


  On January 17, 2013 DCAA revised the reported net savings in DMIS to $18.9 million. The
  detailed calculations provided by DCAA demonstrate that the revised net savings amount of
  $18.9 million was (i) based on the original      proposal that DCAA had audited and (ii) was
  adjusted for the DCMA technical report. However, the DCAA calculated net savings of
  $18.9 million did not comply with the DCAA guidance provided in DMIS Appendix A, Section
  V – Forward Pricing. The net savings of $18.9 million did not result from a careful review of the
  contracting officer’s PNM and a determination of which audit exceptions reported in Audit
  Report No. 4821–2011R21000012, if any, had been sustained by the contracting officer.

  Instead DCAA performed a top level review of the contracting officer’s PNM and reported net
  savings for those major cost elements where the negotiated amount was less than the amount
  proposed by         in their August 18, 2011 proposal. Where this was the case, DCAA
  computed net savings for that cost element by applying a ratio DCAA computed that represented
  DCAA questioned cost reduced for the impact of the DCMA technical review findings. Using
  this approach, DCAA claimed net savings for the following major cost elements included in the
          August 18, 2011 proposal:

              Proposed Cost Element:                        DCAA Claimed Net Savings
  Direct Labor Dollars                                                            $1,523,190
  Labor Burden                                                                      $760,316
  Material                                                                       $13,294,693
  Material Burden                                                                   $543,589
  Overhead                                                                           $73,792
  Factored Other Direct Cost                                                        $402,469
  Facilities Capital Cost of Money                                                   $70,586
    Total                                                                        $16,668,635

  However, DCAA elected to not report any net savings where the negotiated amount for a major
  cost element was more than the amount proposed by           in their August 18, 2011 proposal.
  We note that for these cost elements, the negotiated amount was less than the amount proposed
  by         in its revised proposal that DCAA did not audit. As a result, DCAA did not report net
  savings for the following cost elements:

              Proposed Cost Element:                        DCAA Claimed Net Savings
  Other Direct Costs                                                  $0
  Interdivisional Work Authorizations                                 $0
  General & Administrative Expense                                    $0

  DCAA added profit of $2,183,591 to the $16,668,635 in net savings calculated above to arrive at
  a reported net savings of $18,852,226. This is the amount reported as net savings in DMIS on
  January 17, 2013 for DCAA Audit Report No. 4821–2011R21000012 and may, or may not,
  represent questioned cost reported by the DCAA and sustained by the contracting officer.




                                                 20
                                 FOR OFFICIAL USE ONLY




                                                                                                      DODIG-2014-109 │ 91
                 Attachment 11 (cont’d)


                      Recommendation F
                        1. The Director, DCAA should evaluate DCAA guidance for reporting price proposal audit
                           results in DMIS to ensure that such guidance provides reasonable assurance that DCAA:

                               a. Correctly reports dollars examined, questioned cost and net savings when

                                     i.   DCAA did not audit and report on contractor proposed rates, and

                                    ii.   another DoD agency provided the contracting officer with field pricing
                                          assistance for evaluating contractor proposed rates and DCAA did not
                                          assist the other DoD agency in evaluating the contractor proposed rates.

                               b. Correctly reports dollars examined and net savings where DCAA did not audit
                                  and report on contractor proposed profit and the contracting officer did not
                                  request that DCAA furnish any specific factual information or data related to
                                  proposed profit.

                               c. Where it is determined through the review performed in items 1.a and 1.b above
                                  that the existing DMIS guidance did not result in the correct reporting of dollars
                                  examined, questioned cost and net savings in price proposal audits, consider the
                                  need to perform a self-assessment of amounts previously reported by DCAA in
                                  DMIS to ensure that such amounts are not significantly overstated.

                               d. Document the results of the actions taken in 1.a and 1.b and the determination to
                                  perform, or not perform, a self-assessment as recommended in 1.c.


                        2. The Director, DCAA should


                               a. Perform a preliminary study of DMIS reporting of price proposal audit results at
                                  other DCAA locations and determine that net savings has been calculated and
                                  reported in accordance with the requirements of DMIS Appendix A, Section V –
                                  Forward Pricing. This should include determining that the auditors:

                                     i.   Carefully reviewed and compared exceptions in the audit report to the
                                          audit exceptions sustained by the contracting officer as notated in the price
                                          negotiation memorandum,

                                    ii.   (ii). Contacted the negotiator where the price negotiation memorandum
                                          was unclear on any significant audit exceptions, and

                                   iii.   (iii). Excluded amounts attributable to assist audits and technical reviews
                                          from the amounts reported as sustained in DMIS.




                                                                   21
                                                   FOR OFFICIAL USE ONLY




92 │ DODIG-2014-109
Attachment 11 (cont’d)




                         DODIG-2014-109 │ 93
                 Attachment 12




94 │ DODIG-2014-109
Attachment 12 (cont’d)




                         DODIG-2014-109 │ 95
                 Attachment 13




96 │ DODIG-2014-109
Attachment 13 (cont’d)




                         DODIG-2014-109 │ 97
                 Attachment 13 (cont’d)




98 │ DODIG-2014-109
Attachment 13 (cont’d)




                         DODIG-2014-109 │ 99
                 Attachment 13 (cont’d)




100 │ DODIG-2014-109
Attachment 13 (cont’d)




                         DODIG-2014-109 │ 101
                 Attachment 13 (cont’d)




102 │ DODIG-2014-109
Attachment 13 (cont’d)




                         DODIG-2014-109 │ 103
                 Attachment 13 (cont’d)




104 │ DODIG-2014-109
Attachment 14

                                             INSPECTOR GENERAL
                                              DEPARTMENT OF DEFENSE
                                              4800 MARK CENTER DRIVE
                                           ALEXANDRIA, VIRGINIA 22350-1500




                                                                                                      June 21, 2013

  MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY
                 DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY
                   FIELD DETACHMENT

  SUBJECT:          Results of High Risk Review (HRR) Regarding Audit Assignment No. 09891-
                    2006G10100003 (APO HRR Memorandum No. 14, Project No. D2013-
                    DAPOCF-0004.002)

         This memorandum sets forth the results of our review of Defense Contract Audit Agency
  (DCAA) Assignment No. 09891-2006G10100003, involving an audit of a contractor’s claimed
  incurred cost for 2006. Our review of the audit assignment disclosed that the FAO did not:

                    •   adequately document the audit risk and budgeted hours relative to Dollars
                        Examined 1; or

                    •   report the actual Dollars Examined in the DCAA Management Information
                        System.

  Background
          As part of our continuous oversight of DCAA, we initiated an effort to periodically select
  and review audit assignments performed in areas we identified as “high risk” (also referred to as
  high-risk reviews). We selected DCAA Assignment No. 09891-2006G10100003 as part of this
  effort.

         Under the assignment, the field audit office (FAO) examined the contractor’s
  January 31, 2008, intermediate home office allocation proposal for reimbursement of 2006
  incurred costs. The FAO performed the examination to determine the allowability, allocability,
  and reasonableness of the incurred costs. On February 28, 2013, the FAO reported an upward
  adjustment of $1,359,298 to the proposed incurred costs.

  Objective and Scope of High-Risk Review
           We reviewed Assignment No. 09891-2006G10100003 to determine if the FAO:



  1
    “Dollars Examined” represents contractor costs claimed on Government flexibly priced contracts for which the
  auditor can express an opinion as to reasonableness, allocability and allowability. Dollars Examined are entered into
  the DCAA Management Information System for incurred cost and several other types of audits.


                                        FOR OFFICIAL USE ONLY




                                                                                                                          DODIG-2014-109 │ 105
                 Attachment 14 (cont’d)


                                     •   correctly applied appropriate criteria, such as the Federal Acquisition
                                         Regulations (FAR), Defense Federal Acquisition Regulation Supplement
                                         (DFARS), and Cost Accounting Standards (CAS);

                                     •   followed key Agency procedures and guidance;

                                     •   gathered sufficient evidence in support of the reported findings and
                                         recommendations; and

                                     •   issued an audit report that adequately described the findings and
                                         recommendations and served a useful purpose to the contracting officer.

                              To accomplish the objective, we obtained a copy of the assignment working paper
                       package, made inquiries to FAO personnel, and reviewed other relevant documents. We did not
                       perform a comprehensive review of the assignment for compliance with all generally accepted
                       government auditing standards.

                       Results of High-Risk Review

                              Our review of the assignment disclosed that the FAO did not (1) adequately justify the
                       budgeted and incurred hours, and (2) overstated “Dollars Examined” in the DCAA Management
                       Information System.

                       Inadequately Documented Audit Risk and Budget Increases

                               The Branch Office incurred 1,245 hours to cover approximately $1.6 million in “Dollars
                       Examined.” This equates to auditing $1,310 for each audit hour incurred, significantly lower
                       than the Agency average of $32,800 for FY 2011 and $20,100 for FY 2012. Therefore, under
                       this assignment, the FAO examined far less claimed dollars per audit hour than the Agency
                       average.

                              We recognize that the hours necessary to adequately cover an assignment objective must
                       depend on a variety of risk factors and circumstances, not just Dollar Examined. However, the
                       hours planned and incurred on an assignment should bear some relationship to the audit risk
                       documented by the auditor during the planning stage and throughout the audit. In this case, the
                       working papers do not adequately explain why the FAO chose to expend the extraordinary
                       resources it did to complete the audit relative to the Dollars Examined. For example, the risk
                       assessment portion of the working papers did not identify any unusual risk factors that might
                       have helped to support the effort expended.

                               We noted that the auditor and supervisor established an original budget of 313 hours, but
                       the budget was ultimately increased to 1,245 hours (nearly a 300 percent increase). Although the
                       auditor submitted written requests for budget increases, which the supervisor approved, the
                       requests do not provide a sufficient explanation for the increases. The auditor documented the
                       following explanations for the increases:

                                                                2
                                                      FOR OFFICIAL USE ONLY




106 │ DODIG-2014-109
Attachment 14 (cont’d)



             •   starting and stopping the audit for other priority work;

             •   performing an adequacy review of the contractor’s proposal;

             •   incorporating assist audit results;

             •   finishing the report and working papers; and

             •   incorporating any required adjustments to the report and working papers.

           Generally, the original budget already incorporated hours for these tasks. The supervisor
  should have required the auditor to better describe the circumstances which necessitated the
  requested increase, and ensure that the increase was commensurate with the documented risk
  factors.

         In addition, we also found that the auditor had already incurred a significant portion of
  the budget increases prior to submitting them for approval. The supervisor needs to review
  requested increases in advance to help ensure that the auditor does not expend any misdirected or
  unnecessary effort.

          Finally, we learned that the FAO has not established procedures or guidelines for
  submitting and approving proposed budget increases. The FAO should establish such
  procedures to help ensure that auditors document adequate rationale for increases prior to
  incurring the hours, and supervisors consider whether the additional hours are commensurate
  with the overall audit risk.

  Dollars Examined Were Overstated in the DCAA Management Information
  System

          The FAO input Dollars Examined of approximately $2.8 million for Assignment No.
  09891-2006G10100003 into the DCAA Management Information System. However, the actual
  Dollars Examined was $1.6 million after excluding fringe benefits and executive salaries that the
  auditor did not review under this assignment. The same FAO audited these costs under another
  assignment as part of the contractor’s divisional incurred cost proposal. Accordingly, the FAO
  needed to include these costs as Dollars Examined under the divisional assignment. Dollars
  Examined must be accurate because DCAA uses it to help determine the appropriate allocation
  of resources. When Dollars Examined is overstated, it might contribute to the FAO using too
  many resources for a particular assignment objective (in this case, the objective of auditing the
  contractor’s intermediate home office allocation proposal).

          When computing Dollars Examined, DCAA policy requires the FAO to exclude
  allocations (such as fringe benefits) only when another FAO has cognizance over the allocations.
  DCAA DMIS Manual, Appendix A, Section II, paragraph C.1.(e) states:



                                            3
                                  FOR OFFICIAL USE ONLY




                                                                                                       DODIG-2014-109 │ 107
                 Attachment 14 (cont’d)




108 │ DODIG-2014-109
Attachment 15

                                       INSPECTOR GENERAL
                                        DEPARTMENT OF DEFENSE
                                        4800 MARK CENTER DRIVE
                                     ALEXANDRIA, VIRGINIA 22350-1500




                                                                                      June 21, 2013

  MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY
                 REGIONAL DIRECTOR, DEFENSE CONTRACT AUDIT
                  AGENCY MID-ATLANTIC REGION

  SUBJECT:       Results of High Risk Review (HRR) Regarding Audit Assignment
                 No. 6341–2005C10100010 (APO HRR Memorandum No. 15, Project No.
                 D2013-DAPOCF-0004.002)

          This memorandum sets forth the results of our review of Defense Contract Audit Agency
  (DCAA) Assignment No. 6341-2005C10100010, involving the audit of a contractor’s claimed
  FY 2005 incurred costs. Our review of the audit assignment disclosed the following
  deficiencies:

             •   Inadequate audit planning for a substantial budget increase;
             •   Insufficient support for the auditor’s transaction testing plan;
             •   Lack of evidence regarding supervisory involvement;
             •   Improperly superseded working papers; and
             •   Inaccurate calculation of the penalty participation rate.

  Background
         As part of our continuous oversight of DCAA, we initiated an effort to periodically select
  and review audit assignments performed in areas we identified as “high risk.” (Also referred to
  as high-risk reviews) We selected the assignment as part of this high-risk review effort.

          Under the assignment, the DCAA Southern New Jersey Branch Office examined a DoD
  contractor’s January 27, 2012, indirect cost rate proposal for reimbursement of FY 2005 incurred
  costs. The Branch Office performed the examination to determine the allowability of direct and
  indirect costs and establish audit-determined indirect cost rates for FY 2005. On
  September 26, 2012, the Branch Office reported questioned costs of $7,838 and $22,791 for
  claimed travel and general and administrative costs, respectively. The Branch Office also un-
  resolved $2.6 million of claimed subcontractor costs.

  Objective and Scope of High-Risk Review
         We reviewed the assignment to determine if the Branch Office:

             •   correctly applied appropriate criteria such as the Federal Acquisition Regulation,
                 Defense Federal Acquisition Regulation Supplement, and Cost Accounting
                 Standards;


                                  FOR OFFICIAL USE ONLY




                                                                                                      DODIG-2014-109 │ 109
                 Attachment 15 (cont’d)


                                    •    followed Agency procedures and guidance;
                                    •    gathered sufficient evidence in support of the reported findings and
                                         recommendations; and
                                    •    issued an audit report that adequately described the findings and
                                         recommendations and served a useful purpose to the contracting officer.

                              To accomplish the objective, we obtained a copy of the assignment working paper
                       package, interviewed appropriate DCAA employees, and reviewed other relevant documents.
                       We did not perform a comprehensive review of the assignment for compliance with all generally
                       accepted government auditing standards.

                       Results of High Risk Review

                       Inadequate Planning Associated With a Substantial Budget Increase

                               The Branch Office incurred 2,244 audit hours to cover approximately $29 million in
                       Dollars Examined 1. This equates to approximately $12,923 for each audit hour reviewed,
                       significantly lower than the Agency average of $32,800 for FY 2011 and $20,100 for FY 2012.
                       Therefore, under this assignment, the FAO examined far less claimed dollars per audit hour than
                       the Agency average.

                              We recognize that the hours necessary to adequately cover an assignment objective must
                       depend on a variety of risk factors and circumstances, not just Dollar Examined. However, the
                       hours planned and incurred on an assignment should bear some relationship to the audit risk
                       documented by the auditor during the planning stage and throughout the audit. In this case, the
                       working papers do not adequately document why the Branch Office chose to expend the
                       extraordinary number of hours it did to complete the audit. Although the audit risk was set at
                       “maximum,” it did not describe any special circumstances or risk factors that the Branch Office
                       considered.

                               The auditor and supervisor had established an original budget of 600 hours to complete
                       the assignment. Although the supervisor subsequently increased the budget to 2,244 hours
                       (a 274 percent increase), the working papers contain no evidence that the auditor asked for the
                       increase or explained why it was necessary to accomplish the audit objective. In addition, the
                       auditor did not modify the audit program to cover the work that would be performed under the
                       increase. The auditor told us she verbally discussed the need for the budget increase with her
                       supervisor, and the supervisor revised the budget based on that discussion.

                               Generally Accepted Government Auditing Standard 6.06 states, “Auditors must
                       adequately plan and document the planning of the work necessary to address the audit
                       objectives.” Assignment No. 6341-2005C10100010 does not comply with this standard because

                       1
                         “Dollars Examined” represents contractor costs claimed on Government flexibly priced contracts for which the
                       auditor can express an opinion as to reasonableness, allocability and allowability. Dollars Examined are entered into
                       the DCAA Management Information System for incurred cost and several other types of audits.



                                                                       2
                                                             FOR OFFICIAL USE ONLY




110 │ DODIG-2014-109
Attachment 15 (cont’d)


  the FAO working papers fail to properly document that the auditor had planned the work she
  intended to accomplish under the budget increase. The Agency needs to provide training to the
  FAO audit staff addressing the requirement for adequately planning and documenting the work
  to be accomplished under a significant budget increase.

         We found that neither the Southern New Jersey Branch Office nor the Agency as a whole
  has procedures or guidelines for documenting significant budget increase requests. As reported
  in High Risk Review Memorandum No. 14, we found that another FAO had not adequately
  documented the need for a substantial budget increase. At a minimum, DCAA should develop
  guidelines for handling significant budget increases to help ensure that FAOs consistently
  document the request, need, and approval of those increases.

  Inadequate Support for the Transaction Testing Plan

          For all overhead pools except the General and Administrative pool, the FAO only
  performed detailed transaction testing of claimed fringe-benefit costs (consisting of employee
  insurance premiums, statutory employee-related taxes, and employee savings plans). The auditor
  took no exception to the claimed fringe benefit costs. The working papers do not adequately
  explain why the auditor chose only this account for transaction testing. The working papers
  simply state that the auditor selected fringe benefit related costs based on the “high-risk and high
  dollar amounts.” They fail to document why fringe benefit costs involved “high-risk,” other than
  to point out their relative dollar value. We noted that the claimed fringe benefit costs for 2005
  were fairly consistent with those claimed in the prior year, and the FAO did not question any
  prior-year costs. Other claimed overhead accounts, such as the contractor’s “miscellaneous”
  account and others having no nomenclature, might have involved a higher degree of overall audit
  risk even though their dollar value was smaller. Therefore, the working papers did not
  adequately demonstrate that the auditors considered and documented all relevant forms of risk in
  selecting the fringe benefits account.

          DCAA needs to provide the FAO with training on properly documenting the basis for the
  auditor’s transaction testing plan. The training should cover the various forms of risk that the
  auditor must consider and describe in developing the plan.

  Insufficient Evidence of Supervisory Guidance

         Our review of the working papers disclosed insufficient evidence of appropriate
  supervision being provided throughout the audit. The lack of adequate supervision likely
  contributed to the deficiencies discussed above regarding the failure to plan the work and
  demonstrate the appropriateness of the transaction testing plan. Generally Accepted Government
  Auditing Standards (GAGAS), paragraph 6.54 – states:

                 Audit supervision involves providing sufficient guidance and direction to staff
                 assigned to the audit to address the audit objectives and follow applicable
                 requirements, while staying informed about significant problems encountered,
                 reviewing the work performed and providing on the job training.




                                              3
                                    FOR OFFICIAL USE ONLY




                                                                                                         DODIG-2014-109 │ 111
                 Attachment 15 (cont’d)


                              In particular, we found essentially no evidence of supervisory involvement during the
                       fieldwork stage. We expected to see more documented evidence of supervisor and branch
                       manager involvement, especially while the auditor apparently encountered significant problems
                       and had to request a 274 percent increase in budgeted hours. The supervisor had an obligation to
                       formally document his review of the increase to ensure that the auditor did not expend any
                       misdirected or unnecessary effort. The working papers should have also demonstrated more
                       supervisor oversight and review of the detailed transaction testing plan to ensure it adequately
                       considered all relevant forms of risk to the Government.

                             DCAA should provide training to the entire FAO audit staff covering the need to properly
                       document the supervision of an audit.

                       Superseded Working Papers

                               While the assignment was in progress, one of the assigned auditors left the Agency
                       (hereafter referred to as the prior auditor). The prior auditor had charged 517 hours to the
                       assignment. The lead auditor who completed the assignment did not supersede the prior
                       auditor’s working papers in accordance with DCAA procedure. DCAA Contract Audit Manual
                       4-403f (2) states:

                                      Superseded working papers should be clearly identified as such and include any
                                      working papers prepared during the course of the audit that do not support or are
                                      not relevant to the conclusions in the audit report. This will include, for
                                      example, working papers changed due to revisions in audit methodology that are
                                      not relevant to the audit conclusions.

                               The lead auditor decided that the prior auditor’s working papers did not support the
                       reported conclusions. However, she left them in the “current” section of the working papers (the
                       section used to support the reported conclusions), and added a note that read in part:

                                      …Work papers are being recreated to provide more adequate and accurate
                                      documentation related to transaction testing and sampling procedures utilized.

                               In accordance Agency procedure, the lead auditor needed to clearly label the working
                       papers as superseded and move them to the superseded working paper section. The FAO audit
                       staff should be provided with training on how to properly supersede working papers.

                       Inaccurate Penalty Participation Rate

                              The FAO incorrectly computed a general and administrative penalty participation rate of
                       16.74 percent. The FAO incorrectly calculated the rate because the auditor failed to:

                                  •   include costs subject to penalty on flexibly-priced contracts completed in 2005;
                                      and
                                  •   exclude certain costs not subject to penalty on time and material contracts.



                                                                    4
                                                          FOR OFFICIAL USE ONLY




112 │ DODIG-2014-109
Attachment 15 (cont’d)




                         DODIG-2014-109 │ 113
                 Attachment 16

                                                           INSPECTOR GENERAL
                                                            DEPARTMENT OF DEFENSE
                                                            4800 MARK CENTER DRIVE
                                                         ALEXANDRIA, VIRGINIA 22350-1500




                                                                                                           June 21, 2013

                       MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY
                                      REGIONAL DIRECTOR, DEFENSE CONTRACT AUDIT
                                       AGENCY EASTERN REGION

                       SUBJECT:       Results of High Risk Review Regarding Audit Assignment No. 1261–
                                      2007J10100537 (APO HRR Memorandum No. 16, Project No. D2013-DAPOCF-
                                      0004.002)

                               This memorandum sets forth the results of our review of Defense Contract Audit Agency
                       (DCAA) Assignment No. 1261–2007J10100537, involving DCAA Alabama Branch Office’s
                       audit of an incurred cost submission of a DoD contractor. Our review disclosed that the
                       completion of the assignment was significantly delayed and the auditor did not document the
                       reason for the delay in the working papers. In addition, the auditor included 23 pages of detailed
                       explanatory notes in the report which do not appear to serve a useful purpose.

                       Background
                               As part of our continuous oversight of DCAA, we initiated an effort to periodically select
                       and review audit assignments performed in areas we identified as “high risk” (also referred to as
                       high-risk reviews). We selected DCAA Assignment No. 1261–2007J10100537 as part of this
                       high-risk review.

                               Under the assignment, the DCAA Alabama Branch Office examined the 2007 incurred
                       cost submission of a DoD contractor. The purpose of the examination was to determine the
                       allowability of direct and indirect costs and recommend to the contracting officer-audit
                       determined indirect cost rates for the period January 1, 2007 through December 31, 2007. In a
                       January 31, 2013, report, the field audit office (FAO) took no exception to the claimed indirect
                       rates and qualified the claimed subcontractor costs.

                       Objective and Scope of High-Risk Review

                              We reviewed the assignment to determine if the FAO:

                                      •   correctly applied appropriate criteria, such as the Federal Acquisition
                                          Regulation, Defense Federal Acquisition Regulation Supplement, Cost
                                          Accounting Standards, and the contract terms;

                                      •   followed key Agency procedures and guidance;



                                                       FOR OFFICIAL USE ONLY




114 │ DODIG-2014-109
Attachment 16 (cont’d)


                 •   gathered sufficient evidence in support of the reported findings and
                     recommendations; and

                 •   issued an audit report that adequately described the findings and
                     recommendations and served a useful purpose to the contracting officer.

        To accomplish the objective, we obtained a copy of the assignment working paper
  package and reviewed the audit package and other relevant documents. We did not
  perform a comprehensive review of Assignment No. 1261–2007J10100537 for
  compliance with all generally accepted government auditing standards.

  Results of High-Risk Review

         Our review of Assignment No. 1261–2007J10100537 disclosed the following two issues:

  Significant Delay in Completing the Assignment

           The FAO took 4 years to complete the assignment after holding the entrance conference
  and initiating fieldwork on January 21, 2009. DCAA Contract Audit Manual (CAM) 6-707.4,
  states, “It is DCAA policy that all indirect cost submissions will be audited as promptly as
  practical after receipt of the contractor's proposal.” When DCAA significantly delays its
  completion of an incurred cost audit, other critical contracting actions are impacted. For
  example, contracting officers cannot close most flexibly-priced contracts because final rates are
  not available. Contract funding can also expire as a result of DCAA failing to complete an
  incurred cost audit within a reasonable period of time.

          The FAO manager told us Assignment No. 1261–2007J10100537 was delayed to focus
  on “higher-priority” work. However, there was no indication in the working papers that the audit
  had been significantly delayed for other priority work. In fact, the auditor continued to charge
  the assignment intermittently over the entire 4-year period. The working papers needed to
  provide an explanation of why the audit was significantly delayed. The FAO should develop a
  policy to help ensure that auditors document the reasons for significant delays in the working
  papers.

  Unnecessary Explanatory Notes in the Audit Report

          The FAO included 23 pages of explanatory notes in the audit report even though the
  auditor took no exception to any of the claimed costs. We question the necessity of preparing
  extensive explanatory notes in this case because the contracting officer did not need to negotiate
  any questioned costs. The FAO might have saved substantial, scarce audit resources by omitting
  from the report any unnecessary details concerning proposed cost, scope, and conclusions of
  each audited cost element. In total, the auditor charged 1,906 hours to audit only $85 million in



                                            2
                                  FOR OFFICIAL USE ONLY




                                                                                                       DODIG-2014-109 │ 115
                 Attachment 16 (cont’d)


                       Dollars Examined 1. While we do not know how many of these hours were expended to prepare
                       the 23 pages of detailed explanatory notes, the hours saved in not including them could have
                       been significant.

                               The FAO manager told us the Agency’s “preference” is to include detailed explanatory
                       notes in the report even when the auditor takes no exception to the claimed costs. CAM 10-
                       210.6(a), “Explanatory Notes,” states:

                                         Explanatory notes may be omitted in audit reports where there are no findings
                                         and the requestor has indicated that the information describing the basis of the
                                         cost and the audit evaluation would not be useful at negotiations.

                               The FAO did not meet with the requester to determine if explanatory notes would be
                       useful in this case. The CAM guidance should be clarified to convey that FAOs need to meet
                       with the requester to discuss whether detailed explanatory notes would serve a useful purpose
                       when there are no findings. It should also require that the auditor document the discussion in the
                       working papers.

                       Recommendations

                             1.     We recommend that the Regional Director, Defense Contract Audit Agency Eastern
                                    Region, require that the Alabama Branch Office Manager implement a procedure for
                                    helping to ensure auditors document the reasons for significant assignment delays in
                                    the working papers.

                             2.     We recommend that the Director, Defense Contract Audit Agency, revise Contract
                                    Audit Manual 10-210.6(a) to clarify that auditors should:

                                           a. coordinate with the requester when there are no findings to determine if
                                              inclusion of detailed explanatory notes would serve a useful purpose, and

                                           b. document the coordination in the working papers.

                       Closing Remarks

                               We plan to issue a formal draft report covering the results of multiple high-risk reviews,
                       including this review. We will request a formal written response from DCAA once we issue the
                       draft report. However, we welcome any informal comments on the matters discussed in this
                       memorandum in advance of the draft report.



                       1
                         “Dollars Examined” represents contractor costs claimed on Government flexibly priced contracts for which the
                       auditor can express an opinion as to reasonableness, allocability and allowability. Dollars Examined are entered into
                       the DCAA Management Information System for incurred cost and several other types of audits.


                                                                       3
                                                             FOR OFFICIAL USE ONLY




116 │ DODIG-2014-109
Attachment 16 (cont’d)




                         DODIG-2014-109 │ 117
                 Attachment 17
                 Management Comments and Our Response To
                 Recommendation 1
                 DCAA agreed with 63 and disagreed with 24 of the recommendations contained in
                 Attachments 2, 3, 5, 8, 9, 10, 11, 13, 14, 15, and 16. See Attachment 18 for the complete
                 text of the DCAA comments.

                 For the recommendations that DCAA agreed with, DCAA comments were fully responsive
                 and no additional comments are required. For 21 of the 24 recommendations that
                 DCAA did not agree with, we request that DCAA provide additional comments. No
                 additional comments are required for the remaining three recommendations (see
                 Note 5). The following table depicts the number of recommendations that DCAA agreed
                 or disagreed with for each memorandum. The associated notes provide a summary
                 of the management comments for each recommendation that DCAA disagreed with
                 and our response to those comments.

                 Table. Number of Agreed and Disagree d Recommendations
                       Memorandum/Attachment No.          Agreed           Disagreed          Note
                   Memorandum No.2                           4                 4                 1
                   Memorandum No.3                           2                 1                 2
                   Memorandum No.5                          21                 1                 3
                   Memorandum No.8                           1                 6                 4
                   Memorandum No.9                           3                 0
                   Memorandum No.10                          4                 3                 5
                   Memorandum No.11                         19                 2                 6
                   Memorandum No.13                          4                 6                 7
                   Memorandum No.14                          1                 1                 8
                   Memorandum No.15                          2                 0
                   Memorandum No.16                          2                 0
                   Total                                    63                24




118 │ DODIG-2014-109
Note 1 - DoDIG Memorandum No.2 on Audit Assignment
No. 3141-2011M21000001
DCAA Comments
DCAA disagreed with Recommendations A.1, C.1, C.2, and E.1 included in
Memorandum 2 (Attachment 2). DCAA stated that the contractor did not provide the
requested actual costs because the contractor was (1) “not required to maintain costs
in detail under the firm-fixed price undefinitized contract action,” and (2) “not required
to segregate actual costs due to the lack of a Change Order Accounting Clause on the
fixed-price Undefinitized Contract Action.”


Our Response
The DCAA auditor had not observed that the contractor had completed production
of all 250 vehicles prior to submitting its proposal. FAR 15.408, Table 15-2, Part I
requires the contractor to identify incurred costs for work performed before
submitting a proposal. All of the work was performed before the submission of the
proposal, and the auditor failed to ensure that the contractor had complied with the
FAR in disclosing all incurred costs.


Note 2 - DoDIG Memorandum No. 3 on Audit Assignment
No. 4551-2009B11010001
DCAA Comments
DCAA disagreed with Recommendation 2 included in Memorandum 3 (Attachment 3).
DCAA stated that the testing period covered by the audit report ended May 2010, and
the FAO continued to find similar deficiencies in its voucher reviews up to and beyond
the report issuance date. DCAA stated that these deficiencies continued to result in
overbilled costs to the Government, and that implementing this recommendation
would inappropriately put the Government at risk of improperly paying the contractor.


Our Response
The contracting officer elected not to suspend progress payments as DCAA recommended.
Therefore, the Government will not be subjected to any increased risk as a result of
removing the reported recommendation.

DCAA must be able to support any reported recommendations with evidence of
timely and relevant testing.    The contractor billings tested by DCAA and addressed in
the report were between 18 months and 4 years old when DCAA issued its report in




                                                                                        DODIG-2014-109 │ 119
                 November 2011. Therefore, the testing was outdated and did not necessarily reflect
                 the contractor’s billing system as of November 2011. The working papers supporting
                 this report did not include any more current voucher reviews that would support a
                 recommendation to suspend contractor payments. Accordingly, DCAA must supplement
                 the report and remove the recommendation to suspend contractor payments.

                 If the FAO has performed more current tests not addressed in the subject report, it
                 should report on the results of those tests in another report and recommend the
                 suspension of progress payments if those tests support such a recommendation.


                 Note 3 - DoDIG Memorandum No.5 on Audit Assignment
                 No. 6341-2011D21000009
                 DCAA Comments
                 DCAA disagreed with Recommendation C.3 included in Memorandum 5 (Attachment 5).
                 DCAA concluded that a subsequent audit of the contractor’s compliance with CAS
                 on this contract is not needed because DCAA did not opine on direct labor costs in
                 the report.


                 Our Response
                 DCAA did opine on direct labor and indicated in the working papers that it had
                 evaluated proposed labor hours for compliance with CAS. DCAA provided positive
                 assurance in its audit opinion that the contractor’s proposal, including proposed direct
                 labor, was in compliance with CAS. However, regarding direct labor, DCAA did not
                 perform sufficient procedures to support an audit opinion on CAS compliance. The audit
                 performed by DCAA does not provide reasonable assurance that the 463,969 proposed
                 manufacturing hours and 149,557 proposed engineering hours complied with the
                 requirements of the CAS.


                 Note 4 - DoDIG Memorandum No.8 on Audit Assignment
                 No. 4411-2005X10100017
                 DCAA Comments

                 DCAA disagreed with Recommendations 1, 2, 3, 4, 6 and 7 included in Memorandum 8
                 (see Attachment 8). Regarding Recommendations 2, 3, 4, and 6, DCAA stated it performed
                 the following alternative procedures that satisfied the audit objectives for various
                 Mandatory Annual Audit Requirements (MAARs):




120 │ DODIG-2014-109
         •	 For MAAR 6, the auditor reconciled the claimed labor cost to the books
            and records, reviewed executive compensation, and transaction-tested the
            legal cost account;

         •	 For MAAR 10, the adjusting journal entries had an opportunity to be
            selected for review as part of transaction testing;

         •	 For MAAR 15, the auditor compared claimed costs by account to prior
            year costs; and

         •	 For MAAR 9, the auditor reconciled payroll to the contractor’s California
            state tax return.

Regarding Recommendations 1 and 7, DCAA stated that supplementing the report
was not necessary because it performed the alternative procedures which satisfied the
audit objectives.


Our Response
The alternative procedures do not satisfy the audit objectives for the reasons
discussed below:

         •	 Regarding MAAR 6, the alternative procedures did not test the reliability of
            the employee time records, ensure employees existed, or verify employees
            were working;

         •	 Regarding MAAR 10, the working papers do not demonstrate that the
            auditor planned to review or reviewed any adjusting journal entries as part
            of transaction testing;

         •	 Regarding MAAR 15, the alternative procedure did not include a comparison
            of claimed to budgeted costs, which could have identified high-risk areas
            (for example, cost shifting); and

         •	 Regarding MAAR 9, the auditor’s reconciliation to the California state tax
            return does not satisfy the audit objective because it does not include a
            reconciliation of federal taxes as required by MAAR 9.

Therefore, as we addressed in Recommendations 1 and 7, DCAA should supplement the
audit report once it performs the additional procedures to satisfy the audit objectives.




                                                                                           DODIG-2014-109 │ 121
                 Note 5 - DoDIG Memorandum No. 10 on Audit Assignment
                 No. 2701-2012C21000001
                 DCAA Comments
                 DCAA disagreed with Recommendations A.1, A.2 and A.3 included in Memorandum
                 No. 10 (Attachment 10), pointing out that the revised policy in DFARS 215.408
                 and DFARS 252.215-7009 should help prevent the receipt and audit of inadequate
                 price proposals.


                 Our Response
                 Although DCAA did not agree, the management comments are responsive and
                 we do not require additional comments.        The revised DFARS policies should help
                 prevent reoccurrences.


                 Note 6 - DoDIG Memorandum No. 11 on Audit Assignment
                 No. 4821-2011R21000012
                 DCAA Comments
                 DCAA disagreed with Recommendation E and F.1.a included in Memorandum No. 11
                 (Attachment 11). Regarding Recommendation E, DCAA stated that it expects auditors
                 to be involved in post-audit report walkthroughs and technical fact finding summits. For
                 Recommendation F.1.a., DCAA stated that it is appropriate to report dollars examined,
                 questioned costs and net savings even when DCAA did not evaluate the contractor’s
                 proposed rates. The agency stated it complied with current agency policy, and the
                 policy provides reasonable assurance that the data will be correctly reported.


                 Our Response
                 We disagree with DCAA regarding Recommendation E.            The extraordinary actions
                 taken by the Army after receipt of this audit report cannot be classified as normal
                 post-audit discussions between the auditor and contracting officer.         The actions
                 taken by the Army contracting officer to convene a ‘summit’ at the DCAA office in
                 Arizona from February 6 through 24, 2012, in order to reconcile the gaps in the audit
                 findings and make the audit report useable for negotiating the contract went far
                 beyond normal post-audit discussions. The fact that the Army contracting command
                 subsequently implemented a requirement for post-audit report ‘summits’ for all DCAA
                 audit reports received on proposals exceeding $500 million should indicate a strong
                 need for DCAA to take responsive action on our recommendation.




122 │ DODIG-2014-109
Regarding Recommendation F.1.a, DCAA policy should not allow reporting of dollars
examined, questioned costs and net savings generated by work performed by another
agency. For example, DCAA should not report net savings that are the direct result
of the Defense Contract Management Agency’s review of forward pricing indirect rates.


Note 7 - DoDIG Memorandum No. 13 on Audit Assignment
No. 4421-2012B21000001
DCAA Comments
DCAA did not concur with six recommendations included in Memorandum No. 13
(Attachment 13). DCAA disagreed with Recommendations B.1, B.2, and B. 3, stating
it had obtained sufficient evidence to support the audit opinion on proposed material
costs.   DCAA also disagreed with Recommendation C.1, C.2, and C. 3, stating that
they were able to demonstrate the contractor’s compliance with CAS 401 because the
standard allows for the accumulation of costs in greater detail than proposed.


Our Response
Regarding Recommendations B.1, B.2, and B.3, DCAA provided additional information
during the review. We reviewed the additional information and maintain that the
auditors did not obtain sufficient evidence to support the audit opinion. The auditor
relied on unsigned purchase contracts and long term agreements originating from the
contractor and not from the supplier. The auditor should have obtained independent,
credible evidence from the supplier when determining the allowability of proposed
material cost.

As for Recommendations C.1, C.2, and C. 3, we disagree with DCAA.                 Their
interpretation of CAS 401 oversimplifies the standard and does not take into
consideration the illustration of an inconsistent cost accounting practice as identified
at subsection 9904.401-60(b)4. Additionally, DCAA’s contention that CAS 401 allows
for the accumulation of costs in greater detail than proposed does not explain the
differences between the DCAA-identified labor categories found in (1) the contractor’s
estimate of costs, (2) the contractor’s disclosure statement and, (3) the contractor’s
recorded labor hours.




                                                                                      DODIG-2014-109 │ 123
                 Note 8 - DoDIG Memorandum No.14 on Audit Assignment
                 No. 9891-2006G10100003
                 DCAA Comments
                 DCAA did not concur with Recommendation 2 of Memorandum No. 14 (Attachment 14).
                 DCAA stated that it did not duplicate Dollars Examined in DMIS, and that dividing the
                 incurred cost submission among different teams saves time when auditing identical cost
                 elements incurred by related contractor entities.


                 Our Response
                 We did not state that the FAO had duplicated Dollars Examined, and we did not
                 question the FAO’s decision to divide the audit of the incurred cost submission among
                 different teams. We reported that DCAA overstated Dollars Examined in assignment
                 9891-2006G10100003 and understated Dollars Examined in another assignment by
                 the same amount. Therefore, DCAA incorrectly reported Dollars Examined under both
                 assignments. Our concern rests with the fact that the FAO did not accurately report
                 Dollars Examined associated with each audit assignment, and doing so could result in
                 the inappropriate allocation of audit resources to each audit objective for future years.




124 │ DODIG-2014-109
Attachment 18




                DODIG-2014-109 │ 125
                 Attachment 18 (cont’d)




126 │ DODIG-2014-109
Attachment 18 (cont’d)




                         DODIG-2014-109 │ 127
                 Attachment 18 (cont’d)




128 │ DODIG-2014-109
Attachment 18 (cont’d)




                         DODIG-2014-109 │ 129
                 Attachment 18 (cont’d)




130 │ DODIG-2014-109
Attachment 18 (cont’d)




                         DODIG-2014-109 │ 131
                 Attachment 18 (cont’d)




132 │ DODIG-2014-109
Attachment 18 (cont’d)




                         DODIG-2014-109 │ 133
                 Attachment 18 (cont’d)




134 │ DODIG-2014-109
Attachment 18 (cont’d)




                         DODIG-2014-109 │ 135
                 Attachment 18 (cont’d)




136 │ DODIG-2014-109
Attachment 18 (cont’d)




                         DODIG-2014-109 │ 137
                 Attachment 18 (cont’d)




138 │ DODIG-2014-109
Attachment 18 (cont’d)




                         DODIG-2014-109 │ 139
                 Attachment 18 (cont’d)




140 │ DODIG-2014-109
Attachment 18 (cont’d)




                         DODIG-2014-109 │ 141
                 Attachment 18 (cont’d)




142 │ DODIG-2014-109
Attachment 18 (cont’d)




                         DODIG-2014-109 │ 143
                 Attachment 18 (cont’d)




144 │ DODIG-2014-109
Attachment 18 (cont’d)




                         DODIG-2014-109 │ 145
                 Attachment 18 (cont’d)




146 │ DODIG-2014-109
Attachment 18 (cont’d)




                         DODIG-2014-109 │ 147
                 Attachment 18 (cont’d)




148 │ DODIG-2014-109
Attachment 18 (cont’d)




                         DODIG-2014-109 │ 149
                 Attachment 18 (cont’d)




150 │ DODIG-2014-109
Attachment 18 (cont’d)




                         DODIG-2014-109 │ 151
                 Attachment 18 (cont’d)




152 │ DODIG-2014-109
Attachment 18 (cont’d)




                         DODIG-2014-109 │ 153
                 Attachment 18 (cont’d)




154 │ DODIG-2014-109
Attachment 18 (cont’d)




                         DODIG-2014-109 │ 155
                 Attachment 18 (cont’d)




156 │ DODIG-2014-109
Attachment 18 (cont’d)




                         DODIG-2014-109 │ 157
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
